<html>
<title> - WILL RELIGION FLOURISH UNDER CHINA'S NEW LEADERSHIP?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





          WILL RELIGION FLOURISH UNDER CHINA'S NEW LEADERSHIP?

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

89-733              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
               D. CAMERON FINDLAY, Department of Labor**
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

** Resigned July 2003.

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. James A. Leach, a U.S. Representative 
  From Iowa, Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Schriver, Randall G., Deputy Assistant Secretary for East Asian 
  and Pacific Affairs, Department of State, Washington, DC.......     3
Gaer, Felice D., Co-Chair, the U.S. Commission on International 
  Religious Freedom, Washington, DC..............................    14
Fewsmith, Joseph, professor, director of east Asia 
  interdisciplinary studies, Boston University, Boston, MA.......    20
Lovejoy, Charles D., Jr., associate, U.S. Catholic China Bureau, 
  Princeton Junction, NJ.........................................    24
Aikman, David B.T., former senior correspondent, Time magazine, 
  Lovettsville, VA...............................................    27
Armijo-Hussein, Jacqueline M., assistant professor, department of 
  religious studies, Stanford University, Palo Alto, CA..........    29

                                APPENDIX
                          Prepared Statements

Schriver, Randall G..............................................    38
Gaer, Felice D...................................................    42
Fewsmith, Joseph.................................................    46
Lovejoy, Charles D...............................................    49
Aikman, David B.T................................................    52
Armijo-Hussein, Jacqueline M.....................................    55
Hagel, Hon. Chuck, U.S. Senator From Nebraska, Co-Chairman, 
  Congressional-Executive Commission on China....................    59

 
          WILL RELIGION FLOURISH UNDER CHINA'S NEW LEADERSHIP?

                              ----------                              


                        THURSDAY, JULY 24, 2003

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:40 
a.m., in room 2200, Rayburn House Office building, 
Representative James A. Leach, [Chairman of the Commission] 
presiding.
    Also present: Senator Gordon Smith and Representative 
Joseph R. Pitts.

OPENING STATEMENT OF HON. JAMES A. LEACH, A U.S. REPRESENTATIVE 
  FROM IOWA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Leach. The Commission will come to order.
    Let me first make a comment. Senator Hagel cannot be with 
us this morning. He is meeting in a sudden circumstance with 
the Prime Minister of the Palestinian Authority.
    In addition, Secretary Powell is meeting--and I just broke 
up with it and he is not finished yet--in the International 
Relations Committee room on the Liberian matter.
    Without objection, I am going to place in the record a 
statement of Senator Hagel.
    [The prepared statement of Senator Hagel appears in the 
appendix.]
    Chairman Leach. Let me just say, in terms of opening, that 
the Commission convenes this morning to hear several 
distinguished witnesses give us their thoughts on the current 
condition and treatment of religious believers, practitioners, 
and groups in China.
    We have asked them to look ahead to the potential of change 
under China's new leadership and explore the options open to 
the United States to prompt the development of new attitudes 
and policies toward religion in China.
    Religious freedom around the world remains among the most 
important issues of concern for most Americans. For that 
reason, freedom of religion has been a central topic in our 
human rights discussions with China for many years.
    Religious freedom issues, for example, were a key part of 
discussions last year between President Bush and then-Chinese 
President Jiang Zemin in Crawford, TX. Following that meeting, 
President Bush told reporters that he had reminded President 
Jiang of the importance of China freeing prisoners of 
conscience and giving fair treatment to peoples of faith.
    President Bush also raised the importance of respecting 
human rights in Tibet, and encouraging more dialogue with 
Tibetan leaders.
    This year, the State Department included China in its list 
of countries that deny religious freedom, a finding that the 
U.S. Commission on International Religious Freedom [CIRF] also 
supported. We are happy to welcome witnesses from both 
institutions this morning.
    China's Constitution guarantees protection of normal 
religious activity. Despite this guarantee of the Chinese 
Government, the Communist Party requires that religion be 
congruent with patriotism, which has resulted in widespread 
repression of religious practice.
    In Tibetan and Uighur areas where separatist sentiment is 
often interwoven with religious conviction, repression of 
religion is particularly harsh.
    Chinese authorities often see separatist sentiment as a 
precursor to terrorism, even when religious practitioners 
express such sentiment peacefully.
    The Chinese Government requires religious practitioners to 
meet in government-approved mosques, churches, monasteries, and 
temples. Authorities oversee the selection of religious leaders 
and monitor religious education.
    The Chinese Government often labels unregistered religious 
groups and movements as cults, and those who engage in such 
activities can be arrested with charges of disturbing social 
order. In many cases, local authorities enforce regulations 
that are more restrictive than those enforced at the national 
level.
    Despite these risks, a growing number of religious 
believers choose to worship outside the government-controlled 
religious framework.
    More broadly, the Commission is particularly keen to learn 
from our witnesses whether or not they think that the rise of a 
new group of Chinese leaders in the past few months holds any 
promise of a change in government policy toward religion.
    Some observers, for example, have commented that the new 
leadership group may wish to encourage the social services 
activities of religious groups so that faith-based groups would 
take up some of the critical social services that governments 
at all levels in China can no longer sustain.
    While we all might prefer that religious beliefs, 
practices, organizations, and social action be allowed on their 
own merits, the Commission, for its part, would welcome any 
significant relaxation of current strictures, whatever their 
motive.
    With these comments in mind, let me welcome our panel of 
distinguished witnesses. The first panel is composed of the 
distinguished Deputy Assistant Secretary of State for East 
Asian and Pacific Affairs, Mr. Randall Schriver, who will 
present the Department's perspective.
    Mr. Schriver.

 STATEMENT OF RANDALL SCHRIVER, DEPUTY ASSISTANT SECRETARY FOR 
     EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Schriver. Thank you, Mr. Chairman. Thank you for the 
work of the Commission, and thanks for inviting me here this 
morning to discuss this very important topic of religious 
freedom in China.
    I do have a full statement. I might ask that that be 
submitted for the official record, and I will just make a few 
observations this morning.
    Chairman Leach. Without objection, your full statement, and 
those of all of the other panelists, will be placed in the 
record.
    Mr. Schriver. Thank you.
    Chairman Leach. You may summarize and commence as you see 
fit.
    Mr. Schriver. Thank you. I will make a few observations in 
just the following areas. First, just a general description of 
the current conditions in China as we see them, and then 
addressing very specific areas of interest and concern.
    I will then talk about the issue you just mentioned, the 
Chinese leadership transition, and the prospects that may hold 
for a change in how China deals with religion.
    Then, finally, I will talk briefly about the U.S. 
Government, our policies and our actions and what we plan to do 
in the near term.
    Let me say up front that President Bush and this entire 
Administration are deeply committed to achieving progress on 
religious freedom in China. We are very concerned about the 
situation, as we see it.
    The President and Secretary Powell often raise this in 
their meetings with the Chinese interlocutors. You noted, of 
course, that the President raised this in Crawford.
    The President has also been very public about this. In his 
speech at Qinghua University in February 2002, the President 
said the following: ``Freedom of religion is not something to 
be feared, it is to be welcomed, because faith gives us a moral 
core and teaches us to hold ourselves to high standards, to 
love and to serve others, and to live responsible lives.''
    This is something that should be endorsed by all 
governments around the world. This is not just an American 
value, not only a Western value. What the President noted is 
something that should be embraced by everyone.
    So with the President's lead and with this Administration's 
commitment, freedom of religion is a top foreign policy goal 
for us, and in the case of China, one of the highest priorities 
in the bilateral relationship.
    So let me briefly summarize the current state of religious 
freedom in China as we see it. Mr. Chairman, you noted that the 
Secretary of State did designate China as one of six countries 
of particular concern under the International Religious Freedom 
Act. I think it is important to know that the other countries 
are North Korea, Iraq, Iran, Burma, and Sudan.
    The company that China is keeping here does not reflect 
well on her. This exclusive club is made up of some 
objectionable countries. It is also interesting to note that 
there is also reason to believe that Iraq will be coming off 
this list before China. So, again, this does not reflect well 
on China.
    The Secretary made this designation because we found the 
government in China ``is engaged in or tolerates particularly 
severe violations of religious freedom'' in a manner that is 
``egregious, ongoing, and systematic.'' Those are pretty 
powerful words. I think the evidence that we observed in China 
supports that kind of powerful language.
    What we have seen in the last 12 months, the government's 
respect for freedom of religion, freedom of conscience remains 
very poor overall, especially, as you mentioned, for 
independent, unregistered groups and spiritual movements such 
as the Falun Gong.
    Thousands of believers, Catholics, Protestants, Tibetan 
Buddhists, Muslims, members of the Falun Gong, and other groups 
remain in prison for seeking to exercise their religious or 
spiritual views, some of them tortured, and many have been 
abused.
    Given that very poor backdrop, there are some modest 
positive signs which I would also like to highlight, because 
this is important work. We need to find the opportunity to 
highlight areas where there are positive developments and see 
if we can get further progress in those areas.
    One of those areas, as you mentioned, is the growing number 
of believers in China. We believe the official documents 
suggest the numbers of people who are practicing and exercising 
their religious faith is growing. We believe the unofficial 
numbers are probably much higher than that, and we take that as 
a positive sign.
    So although the overall record is certainly poor, it is a 
situation that we hope to find areas of progress and where we 
can get even further progress in the near future.
    Let me address some of the specific areas. The registration 
requirements, Mr. Chairman, that you mentioned. The government 
does require all religious groups to register with state-
sanctioned religious organizations. These organizations, of 
course, monitor and supervise religious activities.
    Naturally, this makes people very uncomfortable in China. 
Many believers feel that they would have to either make 
compromises, or even worse, would be subject to state action 
and oppression if they did register, so many choose not to, for 
understandable reasons.
    Officials have continued the selective crackdown on these 
unregistered or underground groups, churches, temples, and 
mosques.
    We have found, however, that the degree of restrictions 
does vary significantly depending on the region in China. In 
some localities in southeastern China, for example, some 
underground churches have been allowed to operate without 
registering in sort of a tacit acquiescence on the part of the 
Chinese. But even in those cases, often the leadership is 
informally vetted by the Chinese Government.
    We have asked the government to relax or eliminate this 
registration requirement and to allow any religious or 
spiritual groups who wish to practice their faith to do so 
freely.
    We view the increase in the number of unregistered groups 
being allowed to operate freely and without oppression is a 
positive intermediate step before the government eventually 
does away with these restrictions.
    Another area of particular interest is concerning minors 
and their ability to practice religion in China. Religious 
education for young people is necessary to ensure vibrancy and 
continuity in the religious community.
    I think it is particularly crucial that families be allowed 
to transmit their faith and values to their children in certain 
ethnic minority communities, such as Tibetans and Uighurs, 
because this allows them to transmit the core elements of the 
culture.
    Thus, prohibitions on minors practicing religion or 
receiving religious education have been a longstanding issue 
for us. We have raised this question many times. The Chinese, 
in response, back in December at the human rights dialogue and 
in other fora, have expressed that they do not have an official 
policy that bans religious practice for minors.
    However, we do know that there are many obstacles to young 
people practicing religion freely. For instance, we observed in 
mosques in Xinjiang actual signs saying, ``No One Under 18 
Permitted.'' So again, there's an imbalance between actual 
practice and the stated policy, but certainly there are 
obstacles that the Chinese Government has put in place.
    I just mentioned Xinjiang. Chinese officials there have 
ramped up a crackdown against ethnic Uighurs, a Muslim minority 
group. This is really a misguided effort to curb what they call 
``separatism.''
    Senior officials in China have closed mosques. We 
mentioned, of course, that they make it very difficult for 
minors to engage in religious activities. They have taken other 
steps to limit the practice of Islam.
    As we have often stated, China has nothing to fear from the 
practice of religion, whether it is Islam in Xinjiang, Buddhism 
in Tibet, or Christianity throughout China.
    The situation in Tibet, I think, is a mixed picture. We 
have observed that in many ways practitioners are able to 
worship relatively freely, but that Tibetan Buddhist monks and 
nuns continue to face restrictions on their ability to pursue 
religious education and to practice religion.
    There is a case of a very particular concern. A number of 
monks in Sichuan Province were arrested in connection with some 
bombings. We have evidence to suggest that certainly at least 
one of them was not involved in the bombings, but is still 
being held.
    One of the former monks was quickly put to death, despite 
promises from the Chinese Government that he would be allowed 
to appeal his case. So, China has not conducted these cases in 
an open, transparent manner. Unfortunately, they have not given 
us any 
indication that they want to do that.
    Elsewhere in Sichuan, there is a case involving a dozen or 
more Tibetans who were arrested in conjunction with a public 
``long life'' ceremony for the Dalai Lama. Obviously, we fail 
to see any reason why they should be imprisoned or punished for 
such activity.
    I mentioned the Falun Gong. It is an issue that is well 
known to all of us. The Chinese have determined this group to 
be a cult and, as a result, has taken some brutal measures 
against the Falun Gong.
    We have sources reporting that thousands of Falun Gong 
adherents have been arrested, detained, imprisoned, and that 
several hundred or more Falun Gong adherents have died in 
detention since 1999.
    I am sad to say that these reports of repression continue. 
We do continue to raise this as an issue that is important to 
us, and we will continue to do so.
    Another case of very particular interest is that of the 
South China Church. This is another group that China has deemed 
to be a cult and, as a result, has taken some unfair measures 
against it. Many of its members have been arrested.
    Egregiously, we have credible reporting that four young 
women have indicated that security forces tortured and abused 
them in order to obtain evidence against the group's founder.
    We have raised this case, of course, in great detail with 
the Chinese and remain deeply concerned over continuing reports 
of abuse and continuing reports of unfair detention.
    Let me also note China's relations with the Vatican. China 
still refuses to acknowledge the Vatican as the supreme 
authority for Chinese Catholics in many matters of faith and 
insists on controlling the appointments of Catholic clerics in 
China through the government-controlled Catholic Patriotic 
Association.
    Many Chinese Catholics who remain loyal to the Pope do so 
in an underground fashion, a non-transparent fashion, or they 
face reprisals from the government. We continue to urge the 
Chinese to move forward in allowing people to practice freely, 
legitimize their relationship with the Pope and the Vatican, 
and resume its own official dialogue with the Vatican.
    We also mentioned briefly North Koreans in China. This is 
something that we spent a lot of time on, but I think in this 
forum it is also important to note that North Koreans who 
practice Christianity face severe risks if they are 
repatriated. We are concerned about reports that China does 
continue to force repatriation of North Koreans.
    We have urged China to treat those who flee North Korea in 
a humane way. We have urged them to allow the U.N. High 
Commissioner for Refugees [UNHCR] into these areas to do 
appropriate refugee screening of North Koreans. We have asked 
them if they would liberalize their policies on allowing NGOs 
to work there, some of the NGOs that we fund quietly.
    Unfortunately, we have not seen the progress we would like 
to see, and the willingness of the Chinese to be cooperative on 
this issue, to date, has been minimal.
    Just a couple of what I would characterize as modestly 
positive notes. The number of believers in China and those that 
practice, we understand, are rising. This is, I think, a 
testament to the important role that faith can play in China, 
where people are hungry for a spiritual life and want this. 
There is potential for improvement, if the Chinese Government 
makes the decision that they are willing to let that happen.
    Mr. Chairman, you also mentioned community activities. In 
some localities, officials do work closely with Buddhist, 
Catholic, and Protestant groups to build schools, build medical 
facilities, and retirement centers for poor communities. So 
this is encouraging.
    In some cases, Catholics and Protestants have been 
encouraged by local officials to work with Western religious 
groups to continue these kinds of activities and these 
services. This is something President Bush has noted and 
encouraged in his talks with the Chinese leadership.
    Let me briefly mention the other topic, Mr. Chairman, that 
you were interested in having us address. That is the new 
leadership and what potential there may be for change.
    I think it is important to note that, in the Chinese 
system, when people come to power, we tend to have unknown 
quantities on our hands because their system, as they are 
waiting in the wings and waiting to assume power, their role is 
very much not to make news, not to make headlines, not to let 
people know that they have any views that may or may not be 
different than the Communist Party and the leadership that 
precedes them.
    So I think the first point is, we have a group that is 
largely an unknown quantity. I think at this point, at this 
early juncture, we have yet to see clear signs that the new 
leadership plans to move in any significant new directions 
related to religious freedom and in the treatment of religious 
believers.
    That said, let me point to a few areas that might give us 
windows on this new leadership. At last December's human rights 
dialogue, China did make a commitment to host visits by some of 
the U.N.'s Special Rapporteurs, for instance, the Rapporteur on 
Religious Intolerance, and Rapporteur on Torture, and the 
Working Group on Arbitrary Detention.
    China promised to invite these groups to visit China. That 
has not come to fruition yet, and we have urged the Chinese to 
move forward. They have cited SARS and have given us other 
explanations which we find uncompelling. So, we urge them to 
move forward. I think that would be a positive development if 
these U.N. officials were allowed to visit China and to engage 
in their work there.
    In addition, the Chinese leaders, last December, invited 
the Congressionally chartered U.S. Commission on International 
Religious Freedom to visit China. I know just following me will 
be the CIRF commissioner, and I believe there is a plan for 
China to host a visit. I look forward to hearing her comments 
on that. I think that would be a positive development.
    In the area of Tibet, the Chinese did invite the elder 
brother of the Dalai Lama to visit China last year and has 
hosted the official emissaries of the Dalai Lama from the 
United States and Europe to visit China. One visit just 
concluded at the end of June.
    This is something that we are cautiously optimistic about. 
As a matter of policy, we want to encourage this dialogue and 
want the Chinese to be engaged directly with representatives of 
the Dalai Lama.
    Unfortunately, on the broader questions, though, about the 
willingness of China's leaders to take steps to relax their 
treatment of practitioners and religious institutions, we just 
do not have enough data to suggest that there is going to be 
significant movement.
    We might even speculate that, at a time when new leadership 
is in power, this kind of risk taking might not be something 
they want to engage in. I think that type of speculation would 
be misguided.
    I think this is a time for the leadership to show that it 
is willing to create a confidence and trust in the people, and 
to recognize the valuable role that religion can play for its 
citizenry, making them good citizens of China and the world.
    Finally, let me briefly address U.S. Government actions and 
what we plan to do. As I mentioned earlier, this is an 
extremely high priority. Religious freedom is raised at all 
levels of the government.
    Mr. Chairman, you mentioned the President raising it in 
Crawford. I think it is significant, when we have important 
bilateral issues that we are working on with the Chinese, that 
religion is almost always placed alongside issues such as North 
Korea and Iraq.
    I think that sends a signal to the Chinese that, if we are 
willing to take the time of the senior leadership to mention 
two or three issues and one of them is freedom of religion, I 
do think that has an impact. They understand that they do not 
get a free pass from us.
    Our Ambassador-at-Large for International Religious 
Freedom, Ambassador John Hanford, has traveled to China twice. 
This is the only country he has made a return visit to so far 
on his watch. He has had regular visits with Chinese officials 
here in Washington. Of course, all of the other senior 
officials raise this as well.
    The issue of religious freedom was raised in the U.S.-China 
human rights dialogue last December. Ambassador Hanford and 
Assistant Secretary Craner were part of that team.
    There are many specific things that the Chinese gave us the 
impression--or even more than the impression, led us to 
believe--that there was going to be forward movement. One is 
the area of religious freedom for minors.
    That, in particular, was an important issue to us that we 
just have not seen progress on yet. We will continue to press, 
but that will continue to be part of the human rights dialogue 
and any dialogue on religious affairs.
    I think there has been some payoff due to these diplomatic 
efforts, mostly in the form of individual prisoner releases. 
Although we know it can be a practice of the Chinese to release 
one and then arrest another, still, these are significant 
developments. For instance, the Tibetan nun, Ngawang Sangdrol, 
who was released last year.
    I and others from the State Department were able to meet 
with her. It only reinforced the importance of this work to see 
this impressive woman, to hear what she had endured, and to 
recognize her as somebody who is going to continue to have a 
voice in these affairs now that she is free to do so.
    Let me just close and reiterate that the situation in China 
is certainly, on balance, poor, and we do not want to leave you 
with 
another impression at all. But we do think that there are some 
positive signs. We want to be optimistic about this new 
leadership. We want to believe that they can take a more 
enlightened approach, a more constructive approach. Until they 
do, China will 
remain a country of particular concern in that exclusive club 
of objectionable countries that I mentioned.
    We do not have any illusions about their history and how 
they have treated religious groups, but nevertheless this will 
continue to be part of our dialogue and continue to be a 
priority. As I said, it is certain that China will not get a 
pass from us on religious freedom issues.
    Thank you, Mr. Chairman. I look forward to any questions 
you have.
    [The prepared statement of Mr. Schriver appears in the 
appendix.]
    Chairman Leach. Thank you very much.
    Let me just begin with a couple of questions and then turn 
to my colleagues.
    First, let me just say that there are always exceptions to 
all rules. But, as a general rule, religion is a socially 
conservative institution. It becomes radical when it is 
repressed or lacks respect. The history of America is that the 
more freedom, the greater the vibrancy of the church, but also 
the greater the social cohesion of the church.
    In radically changing times--and China is facing that, as 
we do--churches play a greater role in helping individual 
citizens deal with social change. So, as an institution of 
society, I think all societies have an interest in respecting 
the church. But I think the case for China is one of the most 
radically changing societies in the world, of greater interest 
than, conceivably, most others.
    Here, I would like to ask a question about dialogue with 
the Catholic faith. A fundamental aspect of freedom of religion 
is not only can people choose to worship, but who leads the 
worship.
    The notion that a state would dictate who the leaders of 
the faith are is anathema to the mind, not of a Westerner 
alone, but of anyone who believes in freedom of religion.
    We all know that one of the aspects of systems that are 
either still profoundly Communist, or have remnants in 
Communism, is that there is some antagonism to religion and 
some utilization of the state as leadership of the faith, as in 
the old Soviet Union.
    Is there any hint from this new leadership that they can 
accept the leadership of the faith's choosing, in this case the 
Holy See's, instead of the government's?
    Mr. Schriver. Again, we do not have enough evidence to make 
a solid judgment one way or the other. We do know that Chinese 
officials are willing to talk about the idea of having visits 
from representatives of the Holy See. We do know that they 
understand this is an issue of importance to us, to Catholics 
worldwide, and they know it is something that people are paying 
attention to.
    There is some evidence that Catholics in certain regions 
are allowed to practice a little more freely and are not 
necessarily part of the officially sanctioned Catholic Church. 
It is always a question in China, how much is this sort of 
tacit acquiescence or how much is this going on underground and 
the authorities are not fully aware. So, it is a difficult 
thing to speculate on.
    Again, I think a great first step China could take would be 
to have an ongoing dialogue with representatives of the Holy 
See, and at some point be engaged with the Pope himself.
    I think there can be no better way for the actual Catholic 
Church, the official Catholic Church, to have an opportunity to 
express why this is not something to be feared, why this is, in 
fact, something that can definitely play a constructive role in 
China's future, as you noted, and as I said in my statement, 
the role that they can play in social work and communities.
    So I think an excellent first step, if China is willing to 
take it, would be to engage in a robust dialogue with the Holy 
See.
    Chairman Leach. Well, I certainly support the idea of a 
robust dialogue, but I think we should be very careful of 
accepting as a significant step the idea of a respectful 
dialogue in contrast with acceptance of the right of a church 
to designate its own leadership.
    I think that anything short of that is basically something 
that is an umbrage to the mind of anyone who believes in 
freedom of religion. So, there are certain things in Chinese 
history that are of a step-by-step nature.
    There are other things that I think are of a principle 
nature, that have to be wrestled with on absolute principle 
terms. Leadership of a church is one of those. I would hope 
that our government would indicate that as strongly as they 
can.
    Let me just ask one final question before turning it over 
to my colleagues.
    As we followed the old Soviet Union, and I used to be in 
Soviet Affairs at the State Department, we used to look at 
certain leaders and whether or not they were people of faith, 
and wondered. We also looked at church movements in Russia and 
found that they became institutions of change because the 
institutions in government were intransigent.
    Do you have any sense that the typical members of the 
government elite are people of faith of any variety, or are 
people of doubt, or people that are questioning the 
circumstance? Do they ever indicate to such to our government 
or to others?
    Mr. Schriver. I think you can say that within China there 
is great evidence that people desire to have a life where they 
are free to practice religion and express their faith. 
Certainly, within the Communist Party, this has not been 
allowed, even the new generation of leadership that was raised 
through the Party and worked its way through the ranks.
    However, occasionally you do get a private conversation or 
private statement that gives some evidence that a Party member 
is a person of faith and that it plays an important role in 
their life. But it is not something even today that I think 
they feel free to express. It certainly gets much worse if 
there is a suspicion on the part of the government that they 
are associated with certain groups.
    We know that there has been a campaign in China related to 
the Falun Gong where Party members, even members of the 
military, have been arrested and otherwise removed from their 
official positions.
    So I think what you have is a little bit of an uneven 
approach, where in certain areas for certain religious groups 
there may be a tacit acquiescence, and other cases where the 
government feels more threatened--in my view, wrongly--and they 
would be less tolerant.
    I think, over time, there is some room for optimism just 
because we know the numbers are growing in China. Naturally, 
people of faith are going to be entering the Party, they are 
going to be entering the military, they are going to be in 
other institutions. So, I think that over the long term, there 
is room for optimism. That is always the case with China.
    If you look at human rights in China or religious freedom, 
you can say, over 25, 30 years--and almost no one would dispute 
this--the situation gets better and better, and slowly better. 
But it is just not happening fast enough.
    As you said, there is a missed opportunity. These are 
institutions that can play constructive roles in the 
modernization of China and the betterment of people's lives 
there, and it is an opportunity that has been missed.
    Senator Smith. Thank you, Congressman Leach. I am pleased 
to be here with you as a new commissioner. I can think of no 
other bilateral relationship that is more important than that 
of the United States and China. There are many important 
bilateral relationships, but clearly this one ranks perhaps 
highest among them.
    I suppose every one of us who is on this Commission and who 
cares about China and the United States' relationship with 
China has some passion on this, and religious freedom is one of 
the values of the American people that I find the most 
valuable.
    So, Mr. Schriver, we thank you for your work in the State 
Department, and ask that as you pursue America's national 
interests you do not forget America's national values.
    Mr. Schriver. Thank you, sir.
    Senator Smith. I think it is very, very important that, as 
we engage China, that we not lose sight of the importance of 
one of the founding principles of this country, which is that 
people have freedom of conscience and there is no room for 
government between one's conscience and one's God, however the 
individual defines that.
    I am pleased that President Clinton, President Bush, 
Republican and Democrats alike, have spoken eloquently to the 
Chinese on this subject and I hope they will continue, through 
the State Department, to keep this in the forefront of our 
discussions with them.
    I look with concern on the restrictions placed on house 
churches and the other restrictions you have described here 
with respect to the people of Tibet. I look with interest, and 
even a little bit of alarm, certainly concern, for the Chinese 
people, what is developing in Hong Kong.
    I hope that the leadership will respond peacefully and 
thoughtfully. I truly think what happens in Hong Kong is a 
harbinger of what may happen to China more broadly.
    I have, frankly, just one question. I have taken the tack, 
as a U.S. Senator, that the best way to change China, to be a 
friend of China, is to engage this country. So, I have voted 
fairly consistently for engagement for trade in the hopes that 
the Chinese Government would respond by respecting these 
Western values, while we respect their Eastern values as well.
    But it is discouraging to hear many parts of your report. 
It seems so typical of one-party rule, that there is one-party 
paranoia that even extends to concern over a person's faith.
    My question to you, as someone who has voted as I have for 
engagement, has my hope been misplaced? You mentioned that 
change is coming. It is not happening fast enough.
    But, clearly, as China gets involved in WTO, as China asks 
for greater respect from the world, as China deals with its 
situation in Hong Kong, are its leaders aware of this concern 
and what a threshold standard and value it is in the community 
of civilized nations, that we respect religious freedom, 
religious conscience? Has my hope, my faith been misplaced in 
the way I have voted?
    Mr. Schriver. Thank you, Senator. I think everyone who has 
supported engaging China can feel that, though the progress 
might not be what we hoped for, we have had a relationship that 
has encouraged forward movement over a period of time.
    As I said, any observer from China would note that in the 
past 25, 30 years, human rights, religious freedom, it is all 
moving in a positive direction. The quality of life and the 
freedoms that individuals enjoy in China today are 
unquestionably better than 25 years ago.
    I have heard people say it is kind of like watching an 
iceberg, though. You stare at it, you do not see the movement. 
If you look away and look back some period of time later, you 
notice that it has inched along. Maybe that is what we are 
looking at.
    But I do believe that this period of 25 years of modest, 
gradual improvement has definitely come as a result of 
engagement with the outside world, and I think through U.S. 
leadership.
    The timing when this progress began very much relates to 
when China allowed itself to open up to the outside world after 
the Cultural Revolution, the death of Mao Zedong, in the period 
after about 1976. When China became more open to engagement 
with the West, that is when changes started to occur. So, I 
think those who have been proponents of engagement can feel 
good about it. It is not going fast enough.
    Many of us believe very deeply that the future of China 
could be so much better if the government were encouraging, 
rather than oppressing, religious institutions, a free press, 
and other elements that are important and core to Americans. It 
is a frustrating thing, because the Chinese people are the ones 
paying the price, and the international community also pays a 
price by not having the kind of quality citizenship that we 
would like to see from the Chinese.
    So it is a frustrating experience. We would like to see 
greater progress. But I think there is no question that 
engagement with the United States and the outside world has had 
a positive impact over a period of time.
    Senator Smith. Well, I hope you emphasize in your work with 
them a point that Congressman Leach made. That is, that 
religions can be the greatest strength of secular societies if 
they are given respect and a place of protection under law. But 
they can be radicalized by oppression, by lack of respect, by 
lack of rule of law that includes people's faith.
    That does not suggest that the Chinese Government, or any 
other government, needs to tolerate criminality masking in the 
robes of religion. Criminality is one thing. Faith and 
mainstream kinds of religious practices are entirely supportive 
of good civilization, good government, and a progressive state.
    So, I thank you for your testimony and your time.
    It is a pleasure to be here with you, Mr. Chairman. I have 
no other questions.
    Chairman Leach. Thank you very much, Senator.
    We are also joined by Congressman Pitts, who is, I daresay, 
the leading spokesperson in the Congress on a variety of 
religious issues. We are honored that you are with us, Joe.
    Representative Pitts. Thank you. Thank you very much, Mr. 
Chairman, for this very important hearing.
    I will submit my opening statement for the record.
    Chairman Leach. Without objection, yours and all other 
members' will be submitted for the record.
    Representative Pitts. Thank you, Mr. Chairman.
    [The prepared statement of Representative Pitts appears in 
the appendix.]
    Representative Pitts. Mr. Secretary, you mentioned there 
have been prisoner releases. One thing I have been very 
interested in concerning China and the Commission, is that we 
develop a data base, a prisoner list, and encourage members, as 
they travel or meet with officials, Ambassadors, to engage just 
in a respectful way and ask for status reports on some of these 
prisoners. Many of them are what we would call prisoners of 
conscience or prisoners because of their religious beliefs.
    What is your assessment of the possibility of a continued 
pattern of prisoner releases under the new leadership in China? 
Is there a difference between previous cooperation of the 
Chinese leadership and the actions of the new leadership 
regarding prisoner releases?
    Mr. Schriver. Congressman Pitts, thank you. The issue you 
raise is one that we recognize to be important as well. We have 
been engaged through officials channels to try to develop 
prisoner lists and data bases. We have been engaged with NGOs 
who have their own lists so that we can compare the data. Other 
governments have lists.
    I think Assistant Secretary Craner has been really 
effective in taking this approach that ``everybody has got a 
little piece of the picture,'' and that our best opportunity to 
draw attention to the issue, find the most egregious cases of 
unfair detention and imprisonment, is to first have the 
information. He has been very vigorous at that.
    But there just is not enough information yet about the new 
leadership. The small windows we have had into their thinking, 
I am sorry to say, have not been encouraging. We had some cases 
of individual prisoners who we were optimistic might be 
released.
    I might just mention one, a Uighur businesswoman, Rebiya 
Kadeer. I believe the Chinese made their policy statements and 
led us to believe that she would be released. They may have 
been timing that release to coincide with a particular 
bilateral visit, and that would be unfortunate because she 
should be released now. But again, I am sorry to say we have 
not seen a change yet.
    Let me also note that it is extremely important to get 
people out, but we are also aware that the Chinese have the 
ability, if they would like, to release one, arrest one, 
release one, arrest two.
    So it is important that, as we do the work to get the 
individuals out who should not be imprisoned, we also pursue 
broader systemic change in China. That has also been very much 
a part of the work of the State Department under Lorne Craner's 
leadership.
    Representative Pitts. During the Soviet Union period, some 
of us used to organize prisoner writing opportunities to 
communicate with wardens and prisoners. I am told by those now 
who were in prison then that this made a difference in their 
treatment.
    Do you see the opportunity for engagement? For instance, 
sister city relationships or provinces or organizations that 
have relationships with organizations or government entities in 
the United States. Would that be an appropriate forum to 
inquire concerning some of these types of prisoners of 
conscience?
    Mr. Schriver. Yes, sir. Thank you. First of all, as a 
general point, when we have had the opportunity to talk to 
former prisoners who have since been released and they are 
willing to speak with us, we have found that a variety of 
things can help improve their conditions just by virtue of us 
raising their case in official channels.
    We have reason to believe that their condition may improve, 
so it is important that we continue to do that. In terms of the 
direct communication you mentioned, we are aware that such 
activity is taking place with wardens.
    It appears that the response you get is uneven and it is 
not clear why that is, if it is a different regional policy, if 
it is particular individual wardens who feel more comfortable 
responding to an inquiry. We just do not really know the reason 
why this might be.
    But we do have some encouraging results through this 
approach, and I think it is a worthy thing to do. We work 
closely with one particular NGO that has recently started this 
practice and is getting some encouraging results. So, I thank 
you for that question and raising the issue.
    Representative Pitts. Thank you, Mr. Chairman.
    Chairman Leach. Well, thank you very much, Mr. Schriver.
    We will now turn to our next panel.
    Mr. Schriver. Thank you.
    Chairman Leach. Our next witness is Ms. Felice D. Gaer, who 
is the Co-Chair of the U.S. Commission on International 
Religious Freedom.
    Ms. Gaer, welcome. As with your predecessor, your full 
statement will be placed in the record and you may proceed as 
you see fit.

 STATEMENT OF FELICE D. GAER, CO-CHAIR, THE U.S. COMMISSION ON 
        INTERNATIONAL RELIGIOUS FREEDOM, WASHINGTON, DC

    Ms. Gaer. Thank you, Congressman.
    The Commission on International Religious Freedom [CIRF] is 
grateful for the opportunity to testify. Since it was created, 
the Commission has spoken out on the widespread and serious 
abuses of the right to freedom of religion and belief in China, 
and has provided numerous policy recommendations regarding the 
steps that the U.S. Government should take.
    This hearing is particularly timely because in less than 2 
weeks our Commission expects to travel to China for the first 
time. We plan to visit Tibet as well as other parts of China. 
On our return, of course, we look forward to briefing the 
Congress on our findings.
    We have been asked to address a few issues: leadership 
changes, religious freedom conditions, and recommendations for 
U.S. policy.
    With regard to political leadership changes and their 
impact on issues of freedom of religion and belief, the face of 
China's political leadership has undergone major changes in the 
last year, as you well know.
    The transition from the leadership of Jiang Zemin to Hu 
Jintao has gone smoothly, but it remains unclear to many 
observers whether the change in power will impact the policies 
of the Communist Party at all. If the past is any guide, we 
cannot be very 
optimistic.
    In the area of human rights, we also know that severe 
restrictions on religion and political freedoms are authorized 
at the highest levels of the Communist Party, and many of 
China's new leaders, including Hu Jintao himself, have been 
intimately involved in formulating and implementing the 
government's repressive policies on religion and ethnic 
minorities.
    This fact, along with the fact that many of Jiang Zemin's 
allies continue to occupy key positions overseeing religious 
affairs and legal reform, signals little prospect for immediate 
improvement. In fact, our Commission fears it may even 
deteriorate. However, with the recent transition and the visit 
coming, we may have a different assessment on our return.
    Now, as to the question of religious freedom conditions in 
China, the overriding issue, as indicated in our testimony and 
I think everyone else's, is the question of control. The 
government sees religion as an area that must be subjected to 
government control, and from that follows a lot of the forms of 
repression and limitations that we have seen.
    The government claims the right to control, monitor, and 
restrain religious practice, purportedly to protect public 
safety, order, health, and so forth. However, the actions to 
actually restrict religious belief and practice go far beyond 
what is necessary or legitimate under international law and 
China's obligations.
    China's Constitution provides its citizens with freedom of 
religious belief, but does not provide freedom to manifest 
religious 
beliefs. This highlights the importance of China's signature 
and ratification of the International Covenant on Civil and 
Political Rights. It has signed, it has not ratified.
    The Covenant contains explicit provisions on the right to 
freedom of thought, conscience, and religion, so we look to 
that issue as a harbinger of protection on the legal level.
    Now, the crackdowns against religious believers in China 
are believed to be sanctioned at the highest levels of 
government. This has led to the imprisonment of clergy, even 
the disappearance of key clergy.
    I need only draw attention to the young boy, Gendun Choekyi 
Nyima, who ``disappeared'' in 1995, days after he was 
recognized by the Dalai Lama as the 11th Panchen Lama, the 
second-highest ranking leader in Tibetan Buddhism.
    The Chinese Government continues to insist that the young 
boy is well and is with his parents, and that they are 
protecting his privacy. That is a different interpretation of 
his status than certainly our Commission has, and I am sure 
your Commission as well, Congressman.
    Bishop Su Zhimin, the Catholic bishop, was detained on 
questionable charges. The government claims it does not have 
knowledge of where he is. We would have to count him as a 
``disappeared'' person.
    The question of how to find, see, and interact with leading 
clergy who have been imprisoned is one of the highest 
importance, we believe, because it reveals repression 
sanctioned by China's leadership.
    The Chinese Government has also reserved for itself the 
right to determine the legality of religious activities and the 
legitimacy of religious leaders across the board. As a result, 
the government has banned what is called ``heretical cult 
organizations.''
    Criminal law provides for extensive punishments for those 
organizing and utilizing ``superstitious sects, secret 
societies, evil religious organizations'' to commit crimes.
    Now, it is under these laws that groups like Falun Gong and 
several unregistered Christian Churches have been designated as 
cults by the government, and their practitioners have suffered 
tremendously.
    Imprisonment, often without trial. Falun Gong practitioners 
tell us that as many as 100,000 of their practitioners have 
been sent to labor camps without trial, and hundreds have died, 
they claim, either in prison or after their release.
    Now, the written testimony gives a little bit more detail 
about repression against Protestants and repression against 
Catholics. We speak to the issue of women believers, and also 
the practices that have been used against them and that they 
are vulnerable to when imprisoned.
    We note the concern expressed by the committee monitoring 
the Convention on the Elimination of All Forms of 
Discrimination Against Women in the United Nations regarding 
the violent and coercive measures being used by government 
officials in the conduct of the population policy.
    The questions of Xinjiang and Tibet loom large whenever one 
looks at issues of religious freedom. The government has linked 
religion with separatist or terrorist acts, and particularly 
with regard to these regions and the Muslim religion and the 
Tibetan Buddhist religion. Again, I speak about this in my 
written testimony. The picture is not one of great hopefulness.
    Finally, the issue of North Korea, which Mr. Schriver spoke 
about before, and the issue of North Korean refugees in China 
is one that our Commission has paid much attention to.
    China is a party to the 1951 Convention on the Status of 
Refugees. Under this treaty, it should not be expelling or 
returning refugees to a country where they would suffer 
persecution on return. The forcible repatriation of the 
refugees is a very serious denial of their freedoms and of 
their rights.
    On the issue of U.S. policy, the Commission has identified 
three aspects that have characterized recent U.S. policy to 
advance religious freedom and other human rights in China.
    First, the treatment of religious persons has been raised 
by President Bush and Secretary Powell directly with the senior 
Chinese leadership. Second, the United States has raised cases 
and sought the release of imprisoned individuals who have been 
detained in violation of their rights, including on account of 
religion or belief. Third, the United States funds a multi-
million dollar program to promote democracy and the rule of 
law.
    These efforts contributed, in 2002, to the Administration's 
determination that there had been positive developments, 
particularly with regard to Tibet. In that year, six Tibetan 
political prisoners were released from imprisonment. The 
Chinese Government invited the older brother of the Dalai Lama 
to visit, paving the way for the Dalai Lama's special envoy.
    Citing significant but limited progress, the State 
Department announced in April 2003 that it would neither 
propose nor sponsor a resolution censuring China's human rights 
practices at the United Nations Commission on Human Rights.
    One development cited as a reason for the State 
Department's decision was the Chinese Government's reported 
agreement to invite U.N. human rights mechanisms and special 
rapporteurs, including the Special Rapporteur on Freedom of 
Religion or Belief, to visit China without conditions. However, 
as indicated by Mr. Schriver, these have not yet taken place.
    We would go further and say even the invitations have been 
questionable. Conditions on those visits remain, as in the 
past. The reality of those requests is not what has been said.
    Now, I see the red light is on, and I would just say very 
quickly that we recommend that the Department use the full 
range----
    Chairman Leach. Do not feel hurried.
    Ms. Gaer. Pardon?
    Chairman Leach. Do not feel hurried.
    Ms. Gaer. Oh. All right.
    Chairman Leach. Go ahead.
    Ms. Gaer. Thank you.
    We note the Department has changed its assessment of human 
rights conditions in China. We believe the continued lack of 
systemic changes in this area does raise questions--and must 
raise questions--about the effectiveness of U.S. policy during 
a period like the present one.
    We think that any reassessment of policy should take into 
account past failures on the part of the U.S. Government to 
condition the expansion of the bilateral economic relationship, 
and China's entry onto the international scene through the 
hosting of such public events as the Olympics, on substantial 
improvements in China's religious freedom and human rights 
practices.
    The policy options our Commission would like to stress in 
terms of U.S. actions to advance protection for freedom of 
religion or belief in China include the following three.
    First, that the State Department should use the full range 
of policy tools available under the International Religious 
Freedom Act of 1998 [IRFA] so that it takes additional actions 
with respect to China.
    The Secretary has designated China as a ``country of 
particular concern'' for its egregious violations, but the 
Secretary has determined that preexisting sanctions satisfy the 
IRFA requirements.
    While the reliance on preexisting sanctions may be 
technically correct under the statute, our Commission believes 
it is not defensible as a matter of policy. Moreover, reliance 
on preexisting sanctions provides very little incentive for 
governments like China to reduce or end severe violations of 
religious freedom. There is simply no added value.
    Second, the Department should provide to the Congress its 
evaluation of the impact of current U.S. rule of law and 
democracy programs on the promotion of religious freedom and 
other human rights in China.
    According to the recent, new State Department report on 
U.S. efforts to promote human rights and democracy in China, 
the U.S. Government supports a wide range of programs designed 
to promote, among other things, respect for freedom of 
religion.
    Yet, there is no information about specific religious 
freedom programs in the report, and there is no information 
about the impact that the broader rule of law and democracy 
programs supported by the government have had on the actual 
advancement of freedom of religion or other human rights in 
China. We would welcome attention to that and attention by the 
Congress as well.
    Third, the U.S. Government should enhance its public 
diplomacy efforts focusing attention on the plight of the 
Uighur Muslims and Tibetan Buddhists. The U.S. Government 
should seek expanded opportunities to speak frankly and 
directly to the Chinese people to express why the U.S. 
Government is concerned with violations of internationally 
recognized human rights, and why the American people are 
concerned about them.
    President Bush and Assistant Secretary Craner have done so 
during their visits to China. Our Commission is seeking a 
similar opportunity during the upcoming visit. We think that 
expansion of broadcasts by Radio Free Asia and Voice of America 
are also important to this effort. The number of hours put to 
these programs is, in our judgment, inadequate at this time.
    In summary, Mr. Chairman, the Commission on International 
Religious Freedom recommends that the United States be more 
consistent in our message that religious freedom is, and will 
remain, a priority in U.S. foreign policy and in our assessment 
of progress on China's human rights practices. China must know 
that we will continue to raise this issue until they fully 
comply with their international obligations.
    As a key component of this effort, until China 
significantly improves its protections of religious freedom, 
systemic improvements that will prevent further serious 
violations, the United States should propose and promote a 
resolution to censure China at the United Nations and at its 
Commission on Human Rights.
    This is extremely important, as the United States stands 
virtually alone in striving to focus world attention on China's 
specific violations of human rights. Invitations alone are not 
progress. Systemic progress is what is needed, and we promise 
you we will be pursuing that issue. We look forward to doing so 
in collaboration. Thank you.
    [The prepared statement of Ms. Gaer appears in the 
appendix.]
    Chairman Leach. Well, thank you very much. Let me just say 
that I appreciate the existence of your institution, as well as 
your leadership. I would stress that, in the history of the 
20th century in particular, we have found a great circumstance 
develop where the importance of referencing individuals is 
critical to both changing circumstances and holding governments 
accountable.
    I remember as a college student reading probably the first 
seminal philosophy book on the subject of totalitarianism, 
Hannah Arendt's famous volume. Arendt talked about the 
commonality of themes between fascism and Communism and said 
the principal thing was the loss of individual identity.
    When people were given numbers, when people were taken from 
homes and there was no accountability, no reporting back, no 
dignity to the individual even in death, that this had a 
dispiriting effect on society at large and really defined 
totalitarianism.
    So when institutions like yours take this charge, that of 
looking for accountability for individual human beings, I think 
it is something that is one of the really impressive aspects of 
democratic sensitivities to freedom of religion. So, I want to 
thank you very much for that.
    Ms. Gaer. Thank you.
    Chairman Leach. Mr. Pitts, do you have any questions?
    Representative Pitts. Thank you, Mr. Chairman.
    Thank you, Madam Commissioner, for your very thorough 
testimony. I just wanted to follow up on one thing. You said 
you were going to be visiting China soon.
    Have you considered, or would you consider, requesting 
status reports on religious prisoners or to visit with 
religious prisoners while you are there, to request to actually 
be able to visit some of them if you have any names that would 
interest you in the prisons? I do not know what their reception 
might be, but it might be a possibility for you to consider.
    Ms. Gaer. We have lists, I can assure you. We are familiar 
with the lists of the Department of State, and NGOs as well. 
This would be a first visit for our Commission. We are seeking 
to understand better what the status of freedom of religion is, 
what has improved, and what has not. In that context, we 
certainly will request access and visits.
    I think, as indicated by my testimony, the issue of the 
young Panchen Lama--he is now almost 14 or 15, perhaps not so 
young. But we certainly have lists. We certainly will be 
raising these questions. Whether or not we will have access or 
not, stay tuned.
    Representative Pitts. I understand. Thank you very much. 
Appreciate it.
    Ms. Gaer. You are welcome.
    Chairman Leach. Well, thank you very much. We appreciate 
your testimony.
    Our third panel is composed of Dr. Joseph Fewsmith who is a 
professor, as well as director of East Asia Interdisciplinary 
Studies at Boston University; Mr. Charles D. Lovejoy, Jr., who 
is an associate with the U.S. Catholic China Bureau; Mr. David 
B.T. Aikman, who is a former senior correspondent with Time 
Magazine; and Dr. Jacqueline M. Armijo-Hussein, who is an 
assistant professor, Department of Religious Studies at 
Stanford University.
    In terms of order, I will suggest the way I have 
introduced, unless, by agreement, you have made any other 
decisions. Is that all right with you? Fair enough. All right.
    Then let us begin with Dr. Fewsmith.

STATEMENT OF JOSEPH FEWSMITH, PROFESSOR, DIRECTOR OF EAST ASIA 
    INTERDISCIPLINARY STUDIES, BOSTON UNIVERSITY, BOSTON, MA

    Mr. Fewsmith. Thank you very much, Mr. Chairman. I do 
appreciate the opportunity to come down here and speak to your 
Commission. I have been, of course, asked to testify about 
political trends in contemporary China, leadership transition, 
their implications for state-society relations, including 
religious affairs.
    That is a very large menu. I will not get too much of that 
in depth. All I can do, is hit some of the major trends and 
hope that that makes some contribution.
    As you know, China has undergone a major leadership 
transition over the past year. It is really the first political 
transition that China has undergone since the revolutionary 
generation, the Mao Zedong and the Deng Xiaopings. Deng liked 
to call himself second generation, even though he was a first 
generation revolutionary. Since that generation has gone, this 
is the first real leadership transition.
    I think that we see some glimmers of hope in terms of 
trends toward moderation. I would agree with Randall Schriver 
that it is too early to judge these sorts of issues. Leadership 
transitions, you know, start a couple of years before they take 
place and continue a couple of years after they take place. It 
is a long transition. So, we will have to sit and observe these 
sorts of things.
    But what I would like to stress is that whatever leadership 
China is going to have is going to have to follow some socio-
economic trends in China that are going to drive whatever 
leadership comes to the fore. I think that gives you at least 
some glimmer of hope for the long term. And I would stress the 
long term.
    As you all know, just a couple of years ago General 
Secretary Jiang Zemin called for admitting private 
entrepreneurs--capitalists--into the Chinese Communist Party.
    We sort of absorbed that and said, ``Yes, sure.'' This is a 
shocking change in China, and it suggests a depth of the 
economic and social change that has taken place.
    According to Chinese data, some 20 percent of private 
entrepreneurs are already members of the Chinese Communist 
Party. By the way, most of them join the Party first and then 
go into business, which is not necessarily a clean and 
wonderful way to do things, but it suggests the extent of 
change.
    In recent months, under the leadership of General Secretary 
Hu Jintao, there has been emphasis on the masses on the people. 
Those emphases that we have seen, I think, are speaking to a 
lot of the problems facing China as it goes into the 21st 
century, including tremendously rapid growth of inequality.
    China used to be the most egalitarian society in the world. 
Today, it is one of the least. That is a change within a two-
decade period. The social stress is enormous. The corruption is 
terrible. The unemployment rates would shock anybody who was 
running for office. The emergence of urban poverty, something 
that China has never had, at least in the last 50 years. The 
abuse of authority, social disorder, and so forth.
    The result of that, I think, is that you are beginning to 
see some new demands for accountability of the leadership at 
different levels, and to expand decisionmaking authority within 
the Party itself, so-called intra-Party democracy. I will grant 
you quite readily that this development is a poor substitute 
for the real thing, but it is a change that is occurring on the 
horizon.
    These changes reflect a realization within the Chinese 
Communist Party that Chinese society is changing and that the 
Party itself has to change or it will give up power. So, it is 
beginning to change.
    One of those changes is the very rapid growth of non-
governmental organizations, of which I think religion is a 
specialized type. There were virtually no NGOs in the 1980s in 
China. By the latter half of the 1990s, you had some 700,000 
NGOs.
    As has been mentioned earlier today, these are at least 
supposed to register with government bodies. Frequently, they 
are funded, at least in part, by the government, and therefore 
they are often referred to as government-organized non-
governmental organizations, GONGOs, for short. A wonderful 
term.
    In any case, this growth of intermediary organizations has 
led many in the West to argue that China has been developing 
some form of civil society. That is one of the issues that I 
would actually like to dispute, at least in the Western sense 
of the term.
    Intermediary associations in China just do not fit easily 
into Western categories. We tend to distinguish between the 
state, the public and private spheres, seeing intermediary 
organizations as distinct from government on the one hand and 
articulating the demands and hopes of the people on the other.
    In China, the idea of social organizations articulating 
private interests against the government has never been 
accepted on a normative level. To take the example of China's 
final dynasty, the Qing dynasty, there were specific 
prohibitions against scholarly associations--which I would 
deeply oppose--fearing that they would become the basis of 
factual intrigue against the government as they had in the late 
Ming dynasty. There was an historical basis for that.
    A couple of points here that I think are worth considering. 
First, the notion of ``private'' has traditionally been 
understood quite differently in China than in the West. We tend 
to see private as good. As the expression of private interest 
is absolutely central to our notion of pluralism, the basis of 
our form of government, our society.
    In traditional China, the term ``private,'' ``si,'' was 
generally viewed as the antithesis of ``public,'' or ``gong.'' 
The more private you had, the less public you had. These were 
like phases of the moon, one expanding, the other contracting. 
The government itself, and specifically the figure of the 
Emperor, was supposed to represent and body publicness.
    Second, Chinese governments throughout the 20th century--
and here I have heard the focus several times on the Communist 
government since 1949. One of the things I want to do is try to 
get you to focus on what is Chinese and not just on what is 
Chinese Communist.
    Throughout the 20th century, the Nationalist government, 
the Communist government, previous other governments have 
forced voluntary associations into established hierarchical, 
corporatist structures, or tried to abolish them altogether.
    The first pattern was very distinctly followed by the 
Nationalist government in the 1920s. There is a wonderful set 
of laws that outline a corporatist structure that Mussolini 
would have been proud of. The other pattern of abolishing them 
is what the Chinese Communist government did, particularly 
after 1956, after the so-called Socialist transition.
    With the onset of reforms--and this is where you have seen 
this tremendous change over the last 25 years--the state has 
once against been adopting corporatist structures. This is 
where intermediary associations are supposed to register with 
the Ministry of Civil Affairs and accept state supervision.
    This does not mean that they are, by the way, simply 
extensions of state power. Frequently, they are able to inject 
local interest and concerns into the policymaking process, so 
it is a very complicated situation.
    Religious organizations and activities are special types of 
intermediary associations, based as they are on the spiritual 
needs of their adherents, their tendency to absorb large 
numbers of believers, and their ability to mobilize large 
numbers of adherents around a cause.
    As with other forms of intermediary associations, the 
Chinese state has had long experience with religious 
organizations, much of it unhappy from the state's point of 
view.
    Scholars who study the origins of the Chinese state and the 
monarchical system note that the authority of all emperors was 
based on the idea that the emperor was the link between the 
human world and the heavens. Ancestor worship played an 
absolutely central, critical role in this.
    The emperor's family tablets established a legitimate and 
sacred line. There was a religious foundation to the Chinese 
state, something that many Chinese intellectuals these days do 
not even recognize.
    The current repression that we have heard so much about 
today is, indeed, I think, rooted in the 5,000 years of 
imperial history. In other words, the Chinese state at no point 
has taken the type of perspective toward religious organization 
that you indeed--and I would agree with you--hope that China 
some day will.
    There were periods in Chinese history when Buddhism and 
Daoism occupied important places in the polity. Nevertheless, 
the state ultimately asserted its authority over these 
religions.
    The Chinese state could patronize religions. It could 
incorporate them. It could co-opt them. But it never allowed 
independent, powerful religious organizations to develop, at 
least if it could help it, or a powerful, organized clergy to 
develop, or at least over a long period of time. That was true 
traditionally, and I am sorry to say it remains true today.
    The hostility of the Chinese state toward religious 
organizations--and here I want to be very clear that what the 
Chinese state opposed was not the practice of religion--I think 
that gives you some window of hope there--but the emergence of 
powerful religious organizations that could challenge the 
authority of the state. That policy was rooted in painful, 
historical experience.
    Repeatedly, religious organizations of one sort or another 
have been used to mobilize peasant revolts against the state, 
some of which were successful. This stems from the Yellow 
Turban Rebellion of the Han dynasty, to the White Lotus, the 
Taiping, and Boxer rebellions of the 18th and 19th centuries. 
Such experiences left a very, very deep imprint on Chinese 
political culture and one that is, I think, as distinct from 
our Western traditions as I can think of.
    If there is a positive side to this, it is that although 
the claim to legitimacy of the Chinese state was anchored in a 
religious understanding, its administration of society was 
largely secular. Today, the inheritors of this system, the 
government officials, are relentless modernizers.
    I think that that is good in the sense that they do not 
have problems with the broader issue of modernity. You do not 
see the religiously inspired rejections of modernity in China 
that you see in some parts of the world.
    On the other hand, the Chinese state has continued to see 
religious activities that are organized outside of state 
control as potential sources of social instability. As with 
other forms of voluntary associations, the Chinese state has 
tried to force religious adherents to participate in one or 
another of these state-organized and controlled religious 
associations.
    As Randall Schriver testified, many religious adherents 
have not been willing to accept these restrictions. That, of 
course, is the basic conflict that we see and where the 
suppression of religious freedom comes from.
    I will conclude very quickly. One might add, perhaps on a 
discouraging note, that many government officials who are also 
modernizers do see religious organizers as inimicable to their 
goals of economic development and, therefore, see little wrong 
with their suppression.
    Let me just conclude by saying that I think that there is 
very little academic research that has been carried out on the 
sociology of religion in contemporary China. We know very 
little about who converts to what religion and for what reason.
    We do know that in some parts of the country the growth of 
religion co-exists surprisingly well with the state, and in 
other parts of the country religious organizations are 
suppressed. Serious research on these sorts of issues, I think, 
is desperately needed.
    So, I think I will just conclude on that note.
    Chairman Leach. Thank you.
    [The prepared statement of Mr. Fewsmith appears in the 
appendix.]
    Representative Pitts. Mr. Chairman?
    Chairman Leach. Yes.
    Representative Pitts. I do apologize. I have to leave for 
another meeting. But I do have some follow-up questions I will 
provide to you for the panelists, if that is all right.
    Chairman Leach. Would that be all right if you responded in 
writing?
    Representative Pitts. I very much wanted to hear them, but 
I do have another commitment.
    Chairman Leach. Thank you, Joe.
    Mr. Lovejoy.

STATEMENT OF CHARLES D. LOVEJOY, JR., ASSOCIATE, U.S. CATHOLIC 
              CHINA BUREAU, PRINCETON JUNCTION, NJ

    Mr. Lovejoy. Congressman Leach, thank you very much for 
allowing me to be here today to represent the U.S. Catholic 
China Bureau.
    I currently work at Princeton University as the director of 
University Development for Asia, but I have been associated 
with the Bureau since its inception in 1989. Sister Janet 
Carroll, who many people in this room know, could not be here 
today. She is the executive director. She did ask me to express 
her appreciation for the work of this Commission and for 
allowing her statement to be entered into the record.
    Chairman Leach. And your full statement, as with everyone 
else's, is entered in the record.
    Mr. Lovejoy. She also asked if I would just remind people 
of the function of the U.S. Catholic China Bureau which was 
founded in 1989, with encouragement of the National Conference 
of Catholic Bishops, and is sponsored by a cross-section of 
Roman Catholic organizations and various individuals who share 
its purposes and goals, the main ones of which are to promote 
the development in China of a fully indigenous local Catholic 
Church with adequate leadership and resources for the pastoral 
service of all the Chinese people, to foster reconciliation and 
unity of the Chinese Catholic Church within the universal 
church under the Apostolic See, and finally, to promote 
understanding among American Catholics about the Catholic 
Church and the situation among Catholics there in China.
    Let me briefly highlight key points in that statement that 
we have submitted. As many have cited here, there has been a 
well-recognized tremendous growth and upsurge in religious 
activity in China at all levels--institution, community, and 
personal--since the early 1980s. The Catholic Church has been 
the beneficiary of that growth. In fact, it has grown at least 
fourfold since 1949 or 1950.
    There is potentially disturbing recent evidence, however, 
of government efforts to tighten restrictions on the registered 
Catholic Church and to put more pressure on the unregistered 
church in China.
    The direct, verifiable evidence of individual abuses, 
however, is hard to come by. It is even more difficult 
sometimes to fully understand and appreciate the complexity of 
local situations.
    The Holy See continues its efforts to have a dialogue with 
the Chinese Government and to reconcile internal church 
differences.
    With regard to the Commission's second issue under 
consideration here, the impact of China's new leadership, we 
also agree it is too early to tell just what direction that 
will take.
    Finally, with regard to U.S. policy, we believe it should 
continue to take very strong, principled stands on issues of 
religious freedom while respecting basic Chinese values.
    The attached statement, of course, does show the statistics 
that reflect the growth of the Catholic Church. I might note 
that these statistics are indicative of the courageous efforts 
of Chinese Catholics to restore, renew, and develop their 
church, both as an institution and a community of faith.
    I might also note, that a recent edition of Maryknoll 
Magazine shows a very interesting example of the positive 
aspects of this church growth. In fact, it showed a vibrant 
Catholic community in Shanxi Province that had just completed a 
very stunning new church in a very traditional Chinese design.
    We believe this church was actually an unregistered church, 
but much of the artwork had been done by people who were part 
of the registered church.
    However, recent evidence of tightened controls is found in 
three interesting draft documents that have been circulated. 
These are called: ``The Method of Management of Catholic 
Dioceses in China,'' the ``Rules for the Work of the Patriotic 
Association of Catholic Catholics,'' and, finally, the ``Method 
of Work of the Unitary Assembly of the Patriotic Association of 
Chinese Catholics and of the Chinese Catholic Episcopal 
Conference.'' These were issued by the State Administration for 
Religious Affairs.
    The last one's purpose is worth quoting. It has been 
``formulated . . . to make more complete and to intensify the 
Chinese Catholic independent enterprise in accordance with the 
democratic principles of administering the church, namely, 
collective leadership, democratic supervision, mutual 
consultation, and joint decision.''
    The ostensible purpose of these documents could be 
interpreted as to provide guidelines for church work that will 
help by defining more clearly the relationship of local 
governments with the Catholic Churches, both registered and 
even unregistered.
    However, they probably reflect a general tightening up, and 
in 
effect renewed efforts to strictly enforce religious policy and 
regulations regarding places of worship, and also appears to be 
pressuring unregistered leadership and communities to join with 
the registered communities of Catholics in each diocese.
    The former director of the Vatican agency Fides, in May of 
this year, expressed his concern that these documents, when 
describing the democratic concept of the church, actually run 
the risk of destroying the apostolic and sacramental dimension 
of the Catholic faith, thus reducing the church to the rank of 
a sect.
    This third document, when making reference to the ``Chinese 
Catholic independent enterprise,'' certainly raises some very 
serious concerns, especially if the term ``independent'' is 
used to be interpreted as cutting off the Catholic Church from 
its communion with the universal church.
    However, if it is intended to mean an authentic autonomy 
vis-a-vis both external and internal intrusion into the affairs 
of the church, then we might applaud this as a positive goal.
    Reconciliation and unity among Chinese Catholics and with 
the universal church is certainly a long-desired goal. But if 
this is done by coercion or force, as could be indicated by 
these documents, let alone with violence in any given 
situation, it obviously would be reprehensible and 
unacceptable.
    Let me cite one recent example. I think it was also cited 
in one of the other documents. The Union of Catholic Asian News 
[UCAN] has reported, just in June, the arrest of Reverend Lu 
Xiaozhou, a priest in Wenzhou Diocese who was associated with 
the unregistered church, while he was en route to visit the 
sick in the city hospital. He was then transferred to the 
custody of the local Religious Affairs Bureau and probably has 
been pressured to join the registered church. This tends to be 
a typical way that Chinese authorities will operate.
    However, despite such reports, it is important to point out 
that it is difficult to cite specific instances of repression 
which occur frequently in remote areas, or even to validate 
reports in the religious and secular media of such instances of 
force, coercion, and violence. The local security authorities 
often use these as a pretext for other actions.
    Sister Janet asked me to nuance these remarks by admitting 
that our organization does not have the resources to staff or 
to closely monitor these developments on the ground, and we 
have deferred in these matters to Amnesty International, Human 
Rights Watch, UCAN, and so forth. We never rely on news media 
reports, which we find to be frequently unreliable.
    I would also like to note here that the Catholic China 
Bureau does follow the direction of the Holy See in promoting 
efforts for reconciliation.
    I should note that in the presentation last year to this 
Commission by Thomas Quigley, he cited the statement by Pope 
John Paul II at the Ricci Symposia of 2001 in which John Paul 
expressed the hope that the church would contribute toward 
China's social development, and that it apologized for past 
errors which have frequently been the source of problems with 
the church in China.
    Since then, the Holy See has continued to pursue its 
dialogue with the Chinese Government. It continues efforts for 
reconciliation and unity. It is continuing to identify bishop 
candidates to succeed some of the elderly bishops, both 
official and unofficial, who will be acceptable to all segments 
of the Catholic Church in China and merit the recognition of 
their rightful ecclesiastical role by the authorities of the 
State Religious Affairs Administration.
    Hopefully, this initiative by the Catholic Church 
authorities may lead to deeper reconciliation and, thus, to the 
removal of one proximate cause of the severe crackdowns and 
abrogation of rights of believers that are guaranteed by 
constitutional provisions.
    As noted, with regard to policies and programs with China's 
new leadership, it is really too early to tell. Transition is 
usually a time of uncertainty. The three recent draft documents 
on the church probably reflect an inherent tendency toward 
restriction during periods such as this one, as we see it.
    We believe, therefore, that the options to be pursued by 
the U.S. Government should be in the context of policy 
consistency, justice, and honesty in dealing with the Chinese 
in the political, social, religious, and economic areas.
    The Chinese Government respects and works best when 
confronted with principled, well articulated, and consistent 
positions that respect basic Chinese values and are based on 
commonly accepted international principles.
    We also strongly urge you to continue support for a wide 
range of academic and social exchanges that have emerged over 
the past 10 years. We note with some encouragement that there 
is increased interest in Christianity in academic circles, and 
the fact that U.S. Christian universities now sponsor programs, 
though many are secular in nature, in collaborating with major 
Chinese universities.
    While modernization and globalization definitely pose 
serious challenges to the faith and practice of the religious 
beliefs and convictions of Catholics in China, ironically, this 
continued political pressure on bishops, priests, religious 
sisters, and lay leaders in 
effect hinders them from properly dealing with the challenges 
of contemporary Chinese society as it undergoes rapid 
transformation.
    Therefore, we urge this Commission, as well as the current 
administration of the U.S. Government, to seek to identify and 
encourage leaders in the PRC who are working to bring about 
positive change in a manner that will preserve social stability 
and well-being. We certainly will join with collaborative 
efforts to realize these developments.
    In concluding, let me add a commercial for a conference 
that the Bureau is sponsoring in November, which is our 20th 
National Catholic China Conference. It is called ``The Role of 
Religion in China's Emerging Civil Society.''
    Thank you very much for this opportunity to address the 
state of the Catholic Church in China to this Commission.
    [The prepared statement of Mr. Lovejoy appears in the 
appendix.]
    Chairman Leach. Thank you for those thoughtful 
observations.
    Our next witness will be Dr. David B.T. Aikman.

 STATEMENT OF DAVID B.T. AIKMAN, FORMER SENIOR CORRESPONDENT, 
                TIME MAGAZINE, LOVETTSVILLE, VA

    Mr. Aikman. Thank you, Mr. Chairman, for giving me the 
privilege and the honor of being here today. Because of the 
shortness of time, I will try to make my remarks as short as 
possible. I believe my written statement is already accepted 
into the record.
    My specialty, my expertise, has been the Protestant house 
churches of China, which I have been familiar with for the last 
30 years, including 2 years' residence in China, and then 
several months last year of collecting material for a book.
    I am somewhat familiar with the situation of the Roman 
Catholics, and also somewhat familiar with the situation of 
other religious groups, including Buddhists and Muslims.
    To answer the very first question that the Commission is 
concerned with, has the leadership change in China portended 
any changes in religious policy, I would give a flat ``no,'' 
for one very specific reason.
    The head of the Religious Affairs Bureau, or as it has now 
renamed itself, the State Administration of Religious Affairs, 
Mr. Ye Xiaowen, who is a self-professed militant atheist, is a 
holdover from the former regime of President Jiang Zemin, also 
former General Secretary of the Communist Party. Mr. Ye is 
known to be rather close to Mr. Hu Jintao.
    When I was in China at the time of the political changes 
taking place, I was told by high officials within one of the 
officially registered Christian groups that Mr. Ye's stock had 
risen in light of the new political change.
    Mr. Ye Xiaowen has stood for a policy of extremely tight 
control of all religious groups in China, Protestant, Catholic, 
Buddhist, Muslim, and Daoist. In fact, this control has 
amounted to the continued interruption of religious services, 
religious ceremonies, worship ceremonies carried on by both 
Catholics and Protestants. We have already heard from the Roman 
Catholic side of the equation.
    The overall effect has been to suggest that the new 
political leadership has absolutely no interest whatever in 
modifying the situation of religious believers in China, 
especially Christians.
    However, within the Chinese academic and political 
establishment there are remarkable signs of change. First of 
all, I have met a number of Communist Party members who are 
Christian believers, some of them fairly high up. I know of 
several children of top Chinese political leaders who, outside 
of China, have been baptized as Christians, obviously with the 
knowledge of their parents.
    Within the Chinese Academy of Social Sciences, there are 
strong efforts to abolish the Religious Affairs Bureau as 
reactionary and not conducive to China's peaceful civil 
development and the emergency of a civil society.
    The notion is that what China should adopt is simply a law 
on religious freedom, and that religion should be supervised 
according to the rule of law, without any attempt to control 
them or administer them on theological or other doctrinal 
grounds as promoted by Communist Party authorities.
    The concern has been expressed sometimes by the Chinese 
authorities that religious groups may not be patriotic. In the 
case of the persecution of Falun Gong practitioners, you have 
had a situation where some practitioners have, in fact, 
demonstrated openly, in political terms, against the 
government.
    But as far as the Protestant house church Christians go, at 
least the vast majority of them, they are very patriotic. For 
example, they do not support the independence of Taiwan. They 
do not support the independence of Tibet. They support the 
notion of a central government controlling a unified China, 
albeit in the future, perhaps, in a federal form.
    But there is an interesting washover of religious belief 
into political opposition at the non-violent level. And here, I 
would like to raise the question of two prominent U.S. 
permanent residents, Dr. Yang Jianli and Dr. Wang Bingzhang, 
both of whom have been held for extremely long periods of time. 
In the case of Dr. Yang Jianli, 15 months without any access to 
a lawyer, without any contact with any of his relatives.
    In the case of Dr. Wang Bingzhang, he was actually 
kidnapped in Vietnam, brought into China on a boat in the 
custody of men who were wearing Vietnamese police uniforms, but 
were speaking fluent Mandarin Chinese.
    He was discovered tied up in a Buddhist monastery in Hunan 
Province where, providentially, the Public Security Bureau 
showed up and discovered that there was a warrant for this 
gentleman's arrest in Guangdong Province.
    He was then held for several months. Finally, he was tried, 
convicted, and sentenced to life in prison in February of this 
year.
    Dr. Wang Bingzhang is interesting for one reason, and I 
will conclude with this. In 1896, a prominent political 
oppositionist was kidnapped in London and held in the Chinese 
legation, where plans were being made to ship him back to 
China, where of course he would have been executed.
    His name was Sun Yat Sen. Sun Yat Sen was a political 
oppositionist, for sure. He was also a physician, and he was a 
Christian. Dr. Wang Bingzhang is certainly a political 
oppositionist, he is a physician, and he is a Christian.
    I would like to suggest that the Congress devote attention 
to the way in which political opposition in China, in many 
ways, is being modulated by those in the community who are 
Christian who understand, as Mr. Nelson Mandela did in South 
Africa, that when you have political change, which these 
oppositionists are aiming for you need to have a climate of 
mercy and forgiveness so that you do not have just a repetition 
of the violent revolution that brought the previous regime into 
power.
    I would encourage the U.S. Government to raise issues of 
suppression of religious captives on the grounds of denial of 
freedom of conscience at every opportunity where American 
officials are in contact with their counterparts in China.
    Thank you, sir.
    [The prepared statement of Mr. Aikman appears in the 
appendix.]
    Chairman Leach. Thank you very much.
    Our final witness is Dr. Jacqueline M. Armijo-Hussein.

STATEMENT OF JACQUELINE M. ARMIJO-HUSSEIN, ASSISTANT PROFESSOR, 
  DEPARTMENT OF RELIGIOUS STUDIES, STANFORD UNIVERSITY, PALO 
                            ALTO, CA

    Ms. Armijo-Hussein. I would like to thank the Commission 
for inviting me to share my knowledge of the history and 
contemporary situation of the Muslim peoples of China.
    This knowledge is based on more than 20 years of research 
on this highly important, but neglected, topic, and more than 7 
years lived in China.
    With the Muslim population conservatively estimated at 20 
million, China today has a larger Muslim population than most 
Arab countries. Yet, little is known about this community.
    Of China's 55 officially recognized minority peoples, 10 
are primarily Muslim. The largest group, the Hui, are spread 
throughout the entire country, while the other nine live 
primarily in the northwest region.
    I will begin by concentrating on the Hui, and then address 
the situation of the Uighurs in Xinjiang.
    Shortly after the advent of Islam in the seventh century, 
there were Muslims in China, for sea trade networks between 
China and Southwest Asia had existed for centuries. Small 
communities of Muslim traders and merchants were established in 
port cities along China's southeast coast.
    This very early interest in China as a designation for 
Muslim travelers is reflected in the famous hadith of the 
Prophet Muhammad, ``Utlub al-'ilm wa law fi Sin,'' which means, 
``seek knowledge, even unto China.''
    Although Muslim communities were established in China as 
early as the 7th century, it was not until the 13th century 
during the Yuan dynasty that tens of thousands of Muslims from 
Central and Western Asia settled in China. Most of the Hui 
population today are descendants of these early settlers.
    Despite centuries of relative isolation from the rest of 
the Islamic world, the Muslims in most regions of China have 
managed to sustain a continuous knowledge of the Islamic 
sciences, Arabic, and Persian.
    Given extended periods of persecution, combined with 
periods of intense government efforts to legislate adoption of 
Chinese cultural practices and norms, that Islam should have 
survived, let alone flourished, is an extraordinary historical 
phenomenon.
    Although some scholars have attributed the survival of 
Muslim communities in China to their ability to adopt Chinese 
cultural traditions, when asked themselves, Chinese Muslims 
usually attribute their survival to their strong faith and 
God's protection.
    I am now going to skip the history, which, as an historian, 
is painful. [Laughter.]
    During the Communist rise to power in the 1940s, many 
Muslims agreed to support them in exchange for guarantees of 
religious freedom.
    Although in the early years of the PRC these promises were 
respected, during subsequent political campaigns culminating in 
the cultural revolution, the Muslims of China found their 
religion outlawed, their religious leaders persecuted, 
imprisoned, and even killed, and their mosques defiled, if not 
destroyed.
    In the years immediately following the Cultural Revolution, 
the Muslims of China lost no time in rebuilding their 
devastated communities. Throughout China, Muslims began slowly 
to restore their religious institutions and revive their 
religious activities.
    Their first priority was to rebuild their damaged mosques, 
thereby allowing communities to create a space in which they 
could once again pray together, but also so that mosques could 
reassert their roles as centers of Islamic learning.
    Over the next two decades, mosques throughout most of the 
country organized classes for not only girls and boys and young 
adults, but also for older men and women who had not had the 
opportunity to study their religion.
    Beginning in the late 1980s and continuing into the 1990s, 
Islamic colleges have been established throughout most of 
China, except Xinjiang. Within China, when asked how to explain 
the recent resurgence in Islamic education, community leaders 
cite two main reasons: a desire to rebuild that which was taken 
from them, and the hope that a strong religious faith would 
help protect Muslim communities from the myriad of social 
problems presently besetting China in this day and age of rapid 
economic development.
    Chinese Muslims studying overseas reiterate the need to 
equip themselves and their communities for their future in a 
state which seems to be ideologically adrift.
    After many years of living in China and interviewing 
religious leaders and students, I am convinced that these 
studies have an overwhelmingly positive influence on Chinese 
society.
    Older Muslims are finally able to study their religious 
traditions and young people are able to learn the guiding moral 
traditions of Islam, including a respect for the state and its 
laws.
    As both of my daughters attended the public Hui preschool 
in Kunming for several years, I can attest to the extraordinary 
degree to which the teachers promoted civic responsibility and 
community values, and their American teachers here have 
actually noticed that in them.
    Moreover, Muslim religious leaders have been able to assist 
in the national government's efforts to stem the increasing 
number of rural households who are sacrificing their children's 
education, particularly their daughters, as recent economic 
reforms have resulted in school fees that are crippling 
families' incomes.
    Imams have worked together with the All-China Women's 
Federation to remind peasants in rural areas of their religious 
obligation within Islam to educate all their children.
    Women have played a very active role in the revival of 
Islamic education, both as students and as teachers. The women 
are well aware of the importance of educating girls, for as one 
of them said to me, ``educate a man, educate an individual; 
educate a woman, educate a nation.''
    The Muslims' emphasis on education, both secular and 
religious, is not a surprise. As other minority groups who have 
survived the vicissitudes of state persecution over time, they 
have learned the one thing that cannot be taken away from them 
is their education.
    At present, the government still maintains a very strict 
control on all aspects of public religious practice and 
education throughout China. The government controls the 
faculty, students, and curriculum of Islamic schools, and 
controls the appointment of imams in mosques, and decides which 
ones will be allowed to lead the Friday prayers.
    I will now turn to the condition specifically of the 
Muslims in Xinjiang. Although Muslims throughout China face a 
variety of challenges and are subject to a wide range of 
discriminatory 
actions, the situation for the indigenous peoples of Xinjiang 
is unprecedented in its severity, to my mind surpassing even 
the repressive policies facing Tibetans.
    Muslims who hold official positions, including faculty at 
the universities, are forbidden to carry out any religious 
activity in public. They are not allowed to attend mosques, 
fast during Ramadan, or in any other way respect their 
religious traditions in public. There are signs on mosques 
refusing entry to anyone under 18 years of age. Islamic 
education outside the one officially controlled school is 
forbidden.
    The state has conflated the practice of Islam with 
separatist 
activity and overreacted, and is prohibiting almost all forms 
of Islamic education and public religious practice.
    Once the overwhelming majority in Xinjiang, Uighurs and 
other Muslim peoples will soon be outnumbered by the Han 
Chinese immigrants. And although the government is committed to 
spending millions of dollars on development projects there, the 
primary beneficiaries in virtually every major industrial and 
development project have been the immigrant Han Chinese 
population, and often with tremendous negative environmental 
impact on the region.
    Some policies which I would hope that our government would 
encourage within China are:
    All Muslims should have the freedom to practice their 
religion, and all parents should have the freedom to bring 
their children with them to the mosque.
    All Muslims should have the freedom to take part in Islamic 
studies classes and pursue a deeper understanding of their 
religion.
    All schools in predominantly minority areas should be 
allowed to teach their cultural traditions and history.
    The current quota of only 2,000 people being allowed to 
make the annual pilgrimage to Mecca should be increased to at 
least 20,000, which is the normal amount allowed using the 
Saudi calculation of one hajj visa for every 10,000 Muslims in 
a given country.
    The government is making it increasingly difficult for 
Muslims to receive a passport, thereby limiting their ability 
to take part in hajj or study overseas.
    Over the past decade, throughout China mosques and Muslim 
neighborhoods dating back centuries have been destroyed as a 
result of real estate and public development projects. Efforts 
should be made, ideally through international organizations 
like the United Nations Educational, Scientific, and Cultural 
Organization [UNESCO], to protect Muslim neighborhoods and 
preserve historic mosques as national heritage sites. These 
communal spaces are of fundamental importance to the survival 
of these communities.
    I think the United States should also support the 
establishment of local non-political NGOs by indigenous peoples 
to promote economic, educational, and public health 
developments.
    In conclusion, at the present time Muslims in China 
continue to hope and pray that the U.S. Government will use its 
influence to persuade the Chinese state to uphold its moral and 
international obligations to allow for the freedom of religion 
and the survival of indigenous cultures.
    Recent actions by the United States, including the decision 
to acquiesce to Beijing's labeling a small, obscure Uighur 
group, the ETIM, as a ``terrorist organization,'' has done much 
to undermine Chinese Muslims' faith in the United States as a 
protector of basic human rights.
    And although there are numerous reports made by the Chinese 
state and often repeated in the Western press that radical 
separatism is a common desire in Xinjiang, in fact, in dozens 
of conversations, spanning 20 years now, I have never heard a 
Uighur call for violent attacks on the Chinese state.
    They have spoken with increasing despair that they simply 
be allowed to practice their religion, continue to use their 
language in their studies, and uphold their traditional 
cultural practices as citizens of China.
    Our government should encourage the Chinese state to uphold 
the basic rights of the Muslims in China. Current repressive 
tactics not only undermine the Muslims' right to pass on their 
religious and moral values and cultural practices to their 
children, they also undermine the Muslims' trust in the Chinese 
state.
    In conclusion, although maintaining their religious beliefs 
and practices over the centuries has been a continual 
challenge, Muslims in China have always been confident of their 
identities as both Muslims and Chinese.
    Although many have presumed that these identities were 
somehow inherently antagonistic, the survival of Islam in China 
for over a millennium belies these assumptions. Islamic and 
Chinese values have both proven to be sufficiently 
complementary and dynamic to allow for the flourishing of Islam 
in China, and God willing, will continue to do so.
    Thank you.
    [The prepared statement of Ms. Armijo-Hussein appears in 
the appendix.]
    Chairman Leach. Thank you very much for that thoughtful 
testimony.
    Let me be very clear that we all know that there are 
problems of U.S. policy in the Muslim world, but the U.S. 
Congress has to be unequivocal in supporting the religious 
rights of Muslims in this country, and anywhere else. I 
appreciate very much your testimony in that regard.
    Let me first, at the risk of some presumption, turn to the 
Catholic faith for a second, just an aspect of my time in the 
U.S. Congress, as a reflection of one policy of the Holy See.
    At one time I served with two Members of the U.S. Congress 
who were Catholic priests, but the Pope made a decision that it 
was inappropriate for a member of the Catholic clergy to be an 
elected Member of the Congress or in politics.
    I stress this, because that is part of the tradition of the 
separation of church and state in historical ways that really 
reflected a very modern decision. I think it is very 
impressive, and I think that is something that should be noted 
by the church in a Chinese context.
    Second, I am reminded of listening to a lecture by a noted 
Catholic theological historian, Garry Wills. I hope that is a 
fair description of his field of study. But he commented on the 
life of St. Ambrose, who was an early figure in the church. St. 
Ambrose was considered the most competent individual in a given 
area of Italy and was the equivalent of a Governor. A week 
after accepting the Catholic faith, he was named a bishop.
    But I raise this to suggest that the issue is not so much 
going from the church to government. Here is an example of 
going from the government to the church. Granted, it was the 
early church, and it was a somewhat different phenomenon.
    No one is suggesting that Jiang Zemin should become a 
bishop of the faith. But it is still an interesting phenomenon 
in terms of separation of church and state.
    Dr. Fewsmith, I want to ask you, because you made a quick 
reference, and quick because you had such limited time, to 
certain aspects of Chinese history and where religion and 
social disorder had become synonymous.
    As a former student of Chinese affairs, I found very 
remarkable the issue of the Taiping Rebellion in 1851 to 1864, 
where someone who claimed to be the younger brother of Jesus 
Christ, possibly an epileptic, in one of the least--in terms of 
recent times--historically understood events, because there is 
staggeringly little history that is available to study, but 
apparently the largest civil war in world history occurred.
    Is this kind of event influencing the Chinese leadership 
today or is this one of those anecdotal circumstances that 
people do not refer to? For being a seminal event, a larger 
civil war than the American civil war, which has had a century 
and a half influence in the United States, one has the sense 
that I have never heard a Chinese leader speak to it. I have 
never heard Chinese commentary about the Taiping Rebellion. Is 
this an important event or is it an incidental event, in your 
view?
    Mr. Fewsmith. I think it is an enormously important event. 
There is a real irony here, though, that the Chinese Communists 
used to see themselves as the inheritors of the Taiping 
Rebellion. This was the rebellion that was overthrowing so-
called feudalism, if you will excuse the misuse of the word.
    Chairman Leach. Yes.
    Mr. Fewsmith. And what they lacked, of course, was the 
scientific knowledge of Marxism, which is also problematic. But 
in any case, they used to see themselves as very much the 
inheritors of that tradition.
    Now, when they look at phenomenon like the Falun Gong, they 
see that same dynamic. They know what happens. They were the 
leaders of it. They tapped into the same sorts of social roots.
    So, yes, when they suppress movements such as the Falun 
Gong, they see the Taiping Rebellion, they see the Yellow 
Turban rebellion. I am afraid these things are imprinted very 
deeply on the political culture of China.
    Chairman Leach. Let me turn to the Muslim situation in 
China. Are there similarities in attitudes toward the Muslims 
to the Tibetans, and are there dissimilarities?
    Ms. Armijo-Hussein. I think, to my mind, the major 
similarity is the extent to which the government feels so 
threatened by the idea that here is an area with historically a 
very specific cultural group living there that may want some 
sort of separate state.
    In that sense, it is the extreme reaction that the state 
has to the idea of these groups being autonomous. Technically, 
they are given a fair amount of autonomy, but in reality they 
have minimal actual autonomy.
    For example, oftentimes with an important political 
appointment, a leadership position, they will allow that 
position to go to, let us say, a Uighur, or a Kazakh in 
Xinjiang or Tibet.
    But oftentimes the Party secretary position that is 
associated with the official position, goes to a Han Chinese. 
And as the Party secretary positions are so powerful, the 
result is that actual power is still controlled by the Han 
Chinese. Consequently, in most minority regions, including 
Tibet and Xinjiang, the indigenous peoples have not been able 
to assert any real autonomy or control.
    So the main similarity, I think, has to do with a fear on 
the part of the state that here is this very large indigenous 
group that claims an identity to a specific region. For 
example, with the Hui, it is very difficult, because the Hui 
are all over China.
    Chairman Leach. In the Muslim areas, are there any directed 
immigration flows from other parts of China to weaken 
numerically or percentage wise the Muslim population?
    Ms. Armijo-Hussein. No. Historically, there has been 
movement of Muslims to different regions of China, but at this 
present time, none. For example, during massacres in the past 
people have fled from northwest China to southwest China.
    But then when there were massacres in southwest China, 
Muslims fled either to Burma, Thailand, or other areas of 
China. But recently there has been no mass movement of Muslims 
in any particular direction.
    Chairman Leach. Sir, you are the expert on the Protestant 
Church. Numerically, how strong is it in China?
    Mr. Aikman. I would estimate about 70 million.
    Chairman Leach. That many? How do you break it down?
    Mr. Aikman. About 20 million who are attending Three Self 
Patriotic churches, and about 50 million who attend essentially 
unregistered house churches, private Christian groups.
    Chairman Leach. In Russia, there was a phenomenon in the 
late 1960s through early to late 1980s in which the Baptist 
Church--they were called the Baptisti--came to play a large 
churchly growth role. It was the modern church in contrast with 
the Russian Orthodox Church.
    There was a sociological phenomenon for a period of time, 
for a decade or two, that if one were a member of the church in 
any institution of the economy and were dealing with another 
member of the church, one had an automatic kind of trust level 
that did not exist within the Communist Party. This was a kind 
of bonding circumstance of trust.
    Is there such a phenomenon in China today?
    Mr. Aikman. Well, it is much harder for a Chinese in an 
official position to identify himself as a Christian to 
somebody else in the same way that a Baptist did, for example, 
in the former Soviet Union. And, of course, the Pentecostals 
played a similar role.
    Baptists were prized in the Soviet Army as drivers because 
they did not drink, and therefore they did not get drunk. 
Generals, on the whole, preferred to be driven by sober drivers 
rather than drunken drivers.
    I think what you do see is a sort of networking that is 
developing in China among prominent cultural and academic 
figures who are Christian. Several Chinese universities have 
faculty members who are professing Christians and are known as 
Christians by fellow faculty members.
    Peking University has a significant group of graduate 
students, professors, and undergraduates who are known to be 
Christian. People's University conducted a poll of its students 
and came up with a figure that 3.6 percent of the student 
population actually called themselves Christian, but that about 
60 percent of the student population were quite interested in 
Christianity.
    Again, at People's University, several of the faculty 
members were known to be Christian and were encouraging their 
students to take part in Christian activities.
    Chairman Leach. Well, I know in the Soviet environment 
during this period of some transition that churches had a 
defined membership. But the assumption was, when you talked to 
the leadership, that the fellow traveler/religious person would 
increase the numbers four- or five-fold. Is that a phenomenon 
in China?
    Mr. Aikman. Are you asking if people exaggerate the numbers 
of believers?
    Chairman Leach. No, this was another phenomenon. No 
exaggeration that I am implying one way or another. But if you 
had a membership of a church that worshiped on Sunday of, let 
us say, 1,000, it was the belief of the church leadership that 
they really had four to five times that figure that identified 
very much with the church, although they might not come to the 
service.
    Mr. Aikman. Right. I would not say that is quite analogous 
to the Soviet situation, because if you are interested in 
Christianity you can, in China, legally go to a Three Self 
Patriotic Protestant Church or a Catholic Patriotic Association 
Church. Unless you are observed by your office supervisor, you 
are not likely to come to any harm, or unless you are a 
Communist Party member and are recognized by somebody else 
there.
    I think what is true, is that the interest in Christianity 
at a cultural level is at a very high level. You find large 
numbers of people in China who call themselves cultural 
Christians.
    These are academics who are interested initially in the 
role that Christianity played in the formation of the success 
of Western culture and civilization, and wonder if there are 
any potential analogies for China.
    There are others who are simply attracted by some aspects 
of Christianized culture, whether it is the novels of 
Dostoyevsky or Handel's ``Messiah.'' Handel's ``Messiah'' was 
performed for the first time in Chinese in the year 2001 in the 
center of Beijing with a huge audience of enthusiastic people. 
Even the China Daily reported on this event and interviewed the 
conductor, who happens to be a Christian and was quite open 
about his faith.
    Chairman Leach. Other than the ties that are kind of 
Russian-Chinese-American of emigres from Russia that came 
through Shanghai and Hong Kong, such as former Treasury 
Secretary Michael Blumenthal, how large is the Jewish faith in 
China?
    Mr. Aikman. Well, the last story I ever did when I was a 
reporter based in China was about the Jewish community in 
Kaifeng. The indigenous Chinese Jewish community is pretty 
small and was, at least until the reforms started in 1978, 
1979, somewhat unsure of itself, but willing within reason to 
identify itself.
    I would say, in terms of those who would identify 
themselves as Jews but are of Han Chinese ethnic origin, it 
probably numbers a few thousand. There are still a number of 
Jews of Russian background living in places like Harbin, and 
probably in Xinjiang, but a dwindling number. In Shanghai, I 
think there are a number of Jews.
    Chairman Leach. Well, thank you all very much. I am 
particularly impressed with the expertise on the Muslim 
population in China. That is, I think, of great import to the 
Commission.
    Thank you all very much.
    The hearing is adjourned.
    [Whereupon, at 12:45 p.m. the hearing was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Randall G. Schriver

                             JULY 24, 2003

    Chairman Leach, Chairman Hagel, and other Members of the 
Congressional-Executive Commission on China:
    Thank you for inviting me here today to discuss the current State 
of religious freedom in China and the prospects for improvements in the 
situation under China's new leadership. I would also like to discuss 
the many efforts the Administration has taken to push for greater 
respect for religious freedom in China. Finally, I look forward to 
hearing from other speakers their views on options open to the United 
States to prompt the development of new policies toward religion in 
China.
    As you know, President Bush is deeply and personally concerned over 
the state of religious freedom in China, and he has raised his concerns 
in his meetings with Chinese leaders and in public remarks in China. 
Addressing Chinese students at Beijing's Qinghua University in February 
2002, the President said, ``Freedom of religion is not something to be 
feared, it's to be welcomed, because faith gives us a moral core and 
teaches us to hold ourselves to high standards, to love and to serve 
others, and to live responsible lives.'' Speaking to the strong 
interest we have over the situation in China, the President added, ``My 
prayer is that all persecution will end, so that all in China are free 
to gather and worship as they wish.''
    These concerns are shared by all of us in the Department of State, 
and in our mission in China. Promoting respect for religious freedom is 
one of our top foreign policy goals. So I welcome today's hearing on 
this important topic, and look forward to continuing the dialogue in 
the future.

                         I. CURRENT CONDITIONS

    Let me start by describing our assessment of current conditions in 
China. As you know, the Secretary of State has designated China one of 
six ``countries of particular concern'' under the International 
Religious Freedom Act. The other five are North Korea, Iraq, Iran, 
Burma, and Sudan. We made this designation because we found that the 
Government of China ``is engaged in or tolerates particularly severe 
violations of religious freedom'' in a manner that is ``egregious, 
ongoing and systematic.''
    During the last 12 months, the government's respect for freedom of 
religion and freedom of conscience remained poor overall, especially 
for many unregistered religious groups and spiritual movements such as 
the Falun Gong. Thousands of believers--Catholics, Protestants, Tibetan 
Buddhists, Muslims, or members of the Falun Gong and other groups--
remain in prison for seeking to exercise their religious or spiritual 
views. Some have been tortured; many have been abused.
    But at the same time, we have seen some positive developments that 
may suggest a possibility of increasing tolerance for religious 
activity. China has seen progress since the late 1960s, when religious 
activity was entirely proscribed. The growing number of believers in 
China is a testament to the hunger of Chinese people for religious 
faith. It is also a testament to the greater space given to some 
religious organizations by the government. While we seek to highlight 
and encourage the positive trends that we see, this does not mean that 
the overall situation is good. It clearly is not, and we remain very 
disturbed at the harassment and serious 
mistreatment of many religious believers in China, as well as by the 
Chinese Government's continued insistence on controlling religious 
activity.
    Let me discuss a few specific areas of concern to illustrate this 
complex picture.

A. Registration requirements
    The government requires all religious groups to register with 
state-sanctioned 
religious organizations, which monitor and supervise religious 
activities. Many believers feel they would have to make compromises in 
what they believe or how they worship in order to register and have, 
therefore, chosen not to register. Officials have continued a selective 
crackdown on unregistered or ``underground'' churches, temples, and 
mosques. Members of some unregistered religious groups, including 
Protestants and Catholics, are subjected to restrictions, including 
intimidation, harassment, and detention. However, the degree of 
restrictions varies significantly from region to region. In some 
localities in southeastern China, some ``underground'' churches have 
been allowed to operate without registering--though often only after 
their leader has been vetted by officials. While we have urged the 
government to relax or eliminate the registration requirements and to 
allow any religious or spiritual group to practice their faith freely, 
any increase in the number of unregistered groups allowed to operate is 
a positive intermediate step.

B. Minors
    Religious education for young people is necessary to ensure the 
vibrancy and continuity in a religious community; it is crucial that 
families be allowed to transmit their faith and values to their 
children, and that ethnic minority communities such as Tibetans and 
Uyghurs be allowed to transmit core elements of their culture. 
Therefore, prohibitions on minors practicing religion or receiving 
religious education have been a long-standing concern for us. In 
response to our inquiries, senior government officials claim that China 
has no restrictions against minors engaging in religious activity. 
Nonetheless, observers have witnessed local officials in some areas 
preventing children from attending worship services, and some places of 
worship--especially mosques in western China's Xinjiang Uyghur 
Autonomous Region--have signs prohibiting persons younger than 18 from 
entering. At the U.S.-China human rights dialogue session held in 
Beijing last December, senior Chinese Government officials told us they 
would consider taking steps to clarify state policy on minors and 
religion, but this has not yet occurred.

C. Xinjiang
    I just mentioned Xinjiang. Let me discuss in somewhat more detail 
additional problems of deep concern. Under the mantle of ``counter 
terrorism,'' Chinese officials have ramped up a brutal crackdown 
against ethnic Uyghurs, a Muslim minority group. Uyghurs enjoyed two 
brief periods of independent statehood during the last century. 
Convinced that Uyghurs again seek independence, Beijing pursues a 
policy of such tight control that it may be stoking the very separatist 
sentiment and instability it fears. In a misguided effort to curb 
separatism, officials have closed some mosques, forbidden minors from 
engaging in religious activities, and taken other steps to limit the 
practice of Islam. I say this effort is misguided because we do not see 
a link between nationalist aspirations of some Uyghur groups and Islam 
per se.
    The way to deal with dissatisfaction among minority peoples is not 
through crackdowns, but through allowing Uyghurs and others the high 
degree of autonomy guaranteed them under Chinese law. For the Uyghurs, 
as for Tibetans and other minority groups, this means having a greater 
voice in decisions affecting their lives--for example, greater respect 
for their rights to decide when, where and how to worship. We urge 
Chinese officials to recognize what President Bush has repeatedly 
stated: that religious faith is a source of strength for any community, 
and that China has nothing to fear from the free and unhindered 
practice of religion, whether Islam in Xinjiang, Buddhism in Tibet, or 
Christianity throughout China.

D. Tibet
    The situation in Tibetan regions is a mixed picture. In many areas, 
Tibetan Buddhist lay practitioners are able to worship relatively 
freely and engage in religious celebrations, but Tibetan Buddhist monks 
and nuns continued to face restrictions on their ability to pursue a 
religious education. A number of monks in Sichuan Province were 
arrested in connection with a series of bombings, and one former monk 
was quickly put to death despite promises from the Chinese that he 
would be allowed to appeal his case and that the Supreme Court would 
review the sentence. China has not conducted open trials in any of 
these cases, and we have seen no evidence to suggest that Tenzing Delek 
Rinpoche, a senior religious figure who remains in jail, was in any way 
connected to the bombings. Elsewhere in Sichuan, a dozen or more 
Tibetans were arrested in conjunction with a public ``long life'' 
ceremony for the Dalai Lama. We fail to see why such activity merits 
arrest and imprisonment, and we call on China to follow its own laws on 
freedom of expression and freedom of religion.

E. Falun Gong
    An issue well known to all of us is China's continued harsh 
repression of groups that it has determined to be ``cults,'' including 
the Falun Gong. Various sources 
report that thousands of Falun Gong adherents have been arrested, 
detained, and imprisoned, and that several hundred or more Falun Gong 
adherents have died in detention since 1999. I am sad to report that 
the repression of the Falun Gong continues, and continues to be an 
issue of great concern internationally and in Washington. We have 
raised these issues with the Chinese repeatedly, and will continue to 
do so.

F. South China Church
    Another group China deems to be a cult, the South China Church, has 
seen its members arrested in large numbers. Credible reports from four 
young women indicate that security forces tortured them to obtain 
``evidence'' that was then used against the group's founder. We have 
raised this case in great detail with the Chinese and remain deeply 
concerned over reports of continuing abuse of other 
followers still in detention.

G. Relations with the Vatican
    China still refuses to acknowledge the Vatican as the supreme 
authority for Chinese Catholics in many matters of faith, insists on 
controlling the appointments of Catholic clergy, and only recognizes 
the government-controlled Catholic Patriotic Association (CPA). Many 
Chinese Catholics who remain loyal to the Pope are forced to conduct 
their religious activities surreptitiously or risk arrest. Dozens of 
``underground'' clergy remain in detention or under house arrest, 
including Bishop Su Zhimin, a senior bishop who has been missing since 
1997. We continue to urge the Chinese Government to release these 
detainees, and to resume its dialogue with the Vatican, in hopes that 
China will acknowledge Rome's unique role in the spiritual lives of all 
Catholics around the world, including in China.

H. North Koreans in China
    We are aware that many North Koreans cross into China fleeing 
famine and persecution, and others come seeking work. South Korean 
missionaries are active along China's border with North Korea, and the 
number of Chinese-Korean and North Korean residents of China who are 
Christian is growing. North Koreans who practice Christianity face 
severe risks if they are repatriated, and we are concerned about 
reports that China continues to forcibly repatriate North Koreans. We 
have urged China to treat those who flee from North Korea in a 
humanitarian way. This Administration has also worked to increase basic 
humanitarian aid being provided to this vulnerable population and to 
secure PRC permission for individual North Koreans to depart China for 
South Korea, and we have been funding various organizations that work 
quietly in northeastern China providing North Koreans there with food, 
medicines, and shelter.

I. Numbers of believers
    Despite all the problems I just mentioned, officials, religious 
professionals, and persons who attend services at both officially 
sanctioned and underground places of worship all report that the 
numbers of believers in China continues to grow, and credible reports 
place the number of worshipers in the tens of millions. An increasing 
number of these religious adherents also report they are able to 
practice their faith in officially registered places of worship and to 
maintain contacts with those who share their beliefs in other parts of 
the world without interference from the 
authorities. These are hopeful signs.

J. Community activities
    In some localities, officials worked closely with Buddhist, 
Catholic, and Protestant groups building schools, medical facilities, 
and retirement centers for poor communities. In cases involving 
Catholics and Protestants, local officials frequently encouraged 
Western religious groups to work in their communities to provide much-
needed social services, provided that the groups did not proselytize 
openly. President Bush made clear in his talks with Chinese leaders 
that religion can act as a stabilizing force in any society, and we see 
that this is true in the Chinese context.

             II. POTENTIAL FOR CHANGE UNDER NEW LEADERSHIP

    At this point, let me turn to another important question: the 
potential for change under China's new leadership. The changeover in 
leadership of the Communist Party took place last November, and the new 
government lineup emerged in mid-March. Hu Jintao has taken over the 
top slots in both party and government, and most other senior 
portfolios also switched hands. But while we have a clear picture of 
who is sitting where, we have not yet seen a clear sign that the new 
leadership plans to grant significant new freedoms to religious 
believers, or even to work with the international community on concerns 
over religious freedom, or concerns over human rights more generally.
    At last December's human rights dialogue, China committed to 
cooperate with the United Nations Special Rapporteur on Religious 
Intolerance, as well as with the Special Rapporteur on Torture and the 
Working Group on Arbitrary Detention. Chinese leaders promised that all 
three groups would soon be visiting China, but to date no such visits 
have been scheduled. Some of this can be attributed to the SARS 
outbreak, and we acknowledge that the epidemic created obstacles to 
many types of exchanges. However, the worst of the outbreak is behind 
us, and we now expect China to move forward quickly on its commitments 
to work with these international bodies.
    In addition, Chinese leaders agreed last December to invite the 
Congressionally chartered U.S. Commission on International Religious 
Freedom to visit China. I believe that Commissioner Felice Gaer, who 
will speak later, plans to go on the trip. We understand that this trip 
is scheduled to take place next month. We look forward to hearing the 
Commission's findings upon their return.
    China invited the elder brother of the Dalai Lama to visit last 
summer, and then invited emissaries of the Dalai Lama to visit last 
September. Another visit by the Dalai Lama's emissaries took place 
again 2 months ago, which suggests the new leadership may be willing to 
keep the dialogue going. We have long pressed for resumption of 
dialogue between the Government of China and the Dalai Lama or his 
representatives, so we are encouraged that the exchanges continue to 
take place. We urge that the two sides continue to work toward a 
negotiated settlement on issues of mutual concern.
    As for the broader question on the willingness of Chinese leaders 
to take steps to address restrictions on religious activity in China, I 
can only say that we are waiting for progress in a number of key areas. 
Moments ago, I discussed the problems surrounding the registration 
requirements, and we have repeatedly urged China to liberalize--or drop 
altogether--these requirements, and to stop arresting those who do not 
register. We continue to make this demand, and to watch for a clear 
policy shift in this area. In addition, Chinese officials repeatedly 
told us that minors are free to participate in religious activity 
anywhere in China--to participate in programs of religious training, 
and to enter places of worship. While no policy statement has emerged 
from Beijing, we expect China to honor its pledge to address this 
issue.
    So whether or not the Chinese people will enjoy greater freedom to 
practice and express their faith under the new leadership remains an 
open question. We have seen a few positive developments, but these take 
place in an environment where 
respect for religious freedom remains poor overall. We call again on 
Chinese leaders to honor the commitments they made to the United States 
last December, and to address the concerns of the international 
community in a more systemic, comprehensive manner.

                            III. USG ACTIONS

    Finally, let me discuss actions we have taken to increase respect 
for human rights generally, and religious freedom in particular. As I 
mentioned at the start, the Administration has made this an extremely 
high priority. The U.S. Government raises religious freedom issues with 
Chinese leaders on a regular, frequent basis, and at all levels. 
President Bush discussed religious freedom in his meetings with former 
President Jiang Zemin. Ambassador-at-Large for International Religious 
Freedom John Hanford has traveled twice to China--the only country he 
has returned to so far--and meets regularly with Chinese officials in 
Washington. Other senior officials, including Secretary of State Colin 
Powell, Deputy Secretary of State Richard Armitage, Assistant Secretary 
for Democracy, Human Rights and Labor Lorne Craner, and U.S. Ambassador 
to China Clark Randt have all repeatedly called on China to halt the 
abusive treatment of religious adherents and to respect religious 
freedom. Ambassador Randt also raises our concerns in almost all of his 
public speeches, on both sides of the Pacific. The Department of State, 
the U.S. Embassy in Beijing, and the U.S. Consulates General in 
Chengdu, Guangzhou, Shanghai, and Shenyang all make concerted efforts 
to encourage religious freedom, repeatedly urging Chinese officials to 
respect citizens' rights to religious freedom and release those 
detained for the practice of their faith.
    The issue of religious freedom also was raised during the official 
U.S.-China human rights dialogue in December, which was conducted by 
both Assistant Secretary Craner and Ambassador Hanford. Part of the 
U.S. delegation, led by the Assistant Secretary, traveled to Xinjiang 
to meet with Muslim clerics and government officials and to express 
concern that authorities were using the war on terrorism as an excuse 
to persecute Uyghur Muslims. Another part of the delegation, headed by 
Ambassador Hanford, engaged in a roundtable discussion on religion and 
held several in-depth meetings on religion with key policymakers.
    These diplomatic efforts have led to some progress. Several 
religious prisoners were released during the last 12 months, including 
a number of Tibetan nuns. The most prominent is Ngawang Sangdrol. She 
was released last October, and the new leadership permitted her to 
leave China and travel to the United States in late March. Ngawang 
Sangdrol and the other nuns detained with her should never have been 
arrested in the first place; their ``crimes'' were to demonstrate for 
greater freedom for Tibet and for Tibetan Buddhists. The physical abuse 
they suffered in prison in Lhasa is shocking and totally unacceptable. 
Nonetheless, their releases are significant, and we again call for 
China to release all persons detained for the nonviolent expression of 
their religious views.
    Let me close by saying again that the situation of religious 
freedom, as with many things in China, is a decidedly mixed picture. 
China's new leadership has not yet made clear what its policy toward 
religious freedom in particular, and human rights in general, will be. 
China remains a country of particular concern, and yet we have seen a 
few hopeful signs. We have no illusions about China's history of 
hostility to religion--and in particular to religious groups that 
refuse to take direction from the State.
    Nevertheless, we will continue to call for China to make the right 
choices here, and to understand clearly the President's message that 
China has nothing to fear from the unfettered worship of people of 
faith. We will also continue to make clear to our interlocutors that 
this is an issue that will not go away for us, that concerns over human 
rights and religious freedom will remain an obstacle to closer ties 
between China and the United States, and between China and the rest of 
the world.
                                 ______
                                 

                  Prepared Statement of Felice D. Gaer

                             JULY 24, 2003

    Thank you for the opportunity to testify before this Commission on 
religious freedom conditions in China. The members of the Commission 
are to be commended for holding this important hearing. I would like to 
submit this statement for the Commission's record.
    Since its establishment, the United States Commission on 
International Religious Freedom (USCIRF) has spoken out about the 
widespread and serious abuses of the right to freedom of religion and 
belief in China. It has provided numerous policy recommendations 
regarding the steps that the U.S. Government should take to 
encourage the protection of religious freedom in China.
    The topics discussed here today are particularly timely. In less 
than two weeks, the USCIRF will be traveling to China for the first 
time. We plan to visit Tibet as well as other parts of China. On our 
return, we look forward to reporting our findings to the Congress.

                      POLITICAL LEADERSHIP CHANGES

    The face of China's political leadership has undergone major 
changes in the past year. The transition from the leadership of Jiang 
Zemin to Hu Jintao has gone smoothly, but it remains unclear to many 
observers whether the change in power will impact the policies of the 
Communist Party. If the past is any guide, we can expect the party to 
pursue a policy of gradual economic liberalization coupled with severe 
restrictions on political dissent and religious freedom.
    In the area of human rights, we know that severe restrictions on 
religious and political liberties are authorized at the highest levels 
of the Communist Party. Many of China's new leaders, including Hu 
Jintao himself, have been intimately involved in forming and 
implementing the government's repressive policies on religion and 
ethnic minorities. This fact, along with the fact that many of Jiang 
Zemin's allies continue to occupy key positions overseeing religious 
affairs and legal reform, signals that the prospect is poor for 
immediate improvement in China's record on religious freedom. Indeed, 
we fear it might even deteriorate.
    However, the recent transition offers us a chance to reassess the 
U.S. Government's approach toward protecting and promoting religious 
freedom in China.

                      RELIGIOUS FREEDOM CONDITIONS

    Today, Chinese Government officials continue to claim the right to 
control, monitor, and restrain religious practice, purportedly to 
protect public safety, order, health, and so forth. However, the 
government's actions to restrict religious belief and practice go far 
beyond what is necessary to legitimately protect those interests; in 
other words, far beyond what is permissible under international law. 
While China's Constitution provides its citizens with the ``freedom of 
religious belief,'' it does not protect the right to manifest religious 
beliefs, highlighting the importance for China to ratify the 
International Covenant on Civil and Political Rights (ICCPR), which 
contains explicit provisions on the right to freedom of thought, 
conscience, and religion, and which it signed in 1998.
    The crackdowns against religious believers are believed to be 
sanctioned at the highest levels of government. Indeed, Chinese laws, 
policies, and practices severely restrict religious activities, 
including contact with foreign religious organizations, the training 
and appointment of spiritual leaders, and religious education for 
children in accordance with the convictions of their parents. As a 
result of government policies and practices, persons continue to be 
confined, tortured, imprisoned, and subject to other forms of ill 
treatment on account of their religion or belief. Prominent religious 
leaders such as the Tibetan Buddhist teacher Tenzin Delek Rinpoche and 
Catholic Bishop Su Zhimin remain detained on questionable charges for 
one and 6 years, respectively. A young boy, Gendun Choekyi Nyima, 
``disappeared'' in 1995 after he was recognized by the Dalai Lama as 
the 11th Panchen Lama--the second highest-ranking leader in Tibetan 
Buddhism. The Chinese Government continues to insist that it does not 
have knowledge of Bishop Su's whereabouts. The government also 
continues to deny foreign diplomats and human rights monitors, 
including UN representatives, access to the boy. Tenzin Delek Rinpoche 
was reportedly denied access to legal representatives. In July 2003, 
local officials reportedly raided a house church in Zhejiang province, 
arresting at least six leaders, including the 80-year-old founder of 
the church, Shao Cheng Shen.
    The Chinese Government has also reserved for itself the right to 
determine the legality of religious activities and the legitimacy of 
religious leaders. In 1999, the Standing Committee of the National 
People's Congress adopted a resolution, which has the force of law, to 
ban all ``heretical cult organizations.'' Judicial explanations issued 
by the Supreme People's Court defined ``cult organizations'' as 
``illegal organizations that are set up using religions, qigong, other 
things as a camouflage . . . confuse, poison, and deceive people . . . 
and endanger the society by fabricating and spreading superstitious 
heresies.'' Article 300 of the Criminal Law as amended in 1997 provided 
punishments for those ``organiz[ing] and utiliz[ing] superstitious 
sects, secret societies, and evil religious organizations'' to commit 
crimes. Under these laws, groups like the Falun Gong and several 
unregistered Christian churches that have been designated as ``cults'' 
by the government have suffered tremendously.
    According to Falun Gong practitioners, as many as 100,000 have been 
sent to labor camps without trial. They claim that as many as 700 may 
have died as a result of police brutality either while in prison or 
after their release. Protestant church leaders have been arrested and 
sentenced to lengthy prison sentences for engaging in ``cultic'' 
activities. In December 2001, for the first time since the adoption of 
the 1999 ``evil cult'' law, a Protestant pastor, Pastor Gong 
Shengliang, was sentenced to death for founding an ``evil cult'' and 
questionable criminal charges of rape. The terms off the sentence were 
only reduced after U.S. intervention at the highest level. In July 
2002, three priests affiliated with the underground Catholic Church 
were reportedly sentenced to 3 years in a labor camp after having been 
convicted of practicing ``cult'' activities.
    In many parts of China, even when religious organizations wish to 
register with the government, they face resistance and oppression from 
local officials. For example, in June 2003, 12 members of a house 
church in Yunnan province were reportedly arrested for engaging in 
``feudalistic superstition'' after they officially sought registration 
with the government with the local government. Eight members of the 
church are reportedly being detained indefinitely.
    The Chinese Government has ratified and reported on compliance with 
the Convention on the Elimination of All Forms of Discrimination 
Against Women (CEDAW). However, the government continues to violate the 
human rights, including religious freedom, of Chinese women. Female 
religious persons, including Falun Gong practitioners such as Zheng 
Donghui and Yang Jinxing, were reportedly stripped, beaten, and 
subjected to other forms of ill treatment while in detention. There 
continues to be concern, as enunciated by the Committee on the 
Elimination of All Forms of Discrimination Against Women, that 
government officials are engaging in violent and coercive measures, 
including ``forced sterilizations and abortions, arbitrary detention 
and house demolitions,'' as a part of the population control policy, 
``particularly in rural areas and among ethnic minorities.'' In April 
2003, the U.N. Special Rapporteur on Violence Against Women expressed 
concern that the Chinese Government has continued to engage in such 
practices in Tibet.
    In Xinjiang and Tibet, religious freedom is severely curtailed by 
the government, which linked religion with ``separatist'' or 
``terrorist'' acts. In January 2003, Wang Lequan, Xinjiang's Communist 
Party Secretary and a member of the Politburo, reportedly stated the 
government's resolve to wipe out ``religious extremists,'' 
``splittists,'' and ``terrorists.'' As a result, Uighur Muslim clerics 
and students have reportedly been detained or arrested while ``illegal 
religious centers'' were closed. In July 2003, in an effort to draw 
attention to the plight of the Uighur Muslims, the USCIRF held a 
roundtable discussion among senior U.S. officials, experts, and NGO 
representatives, where, among other things, we learned about the extent 
of the government's tight control over religious affairs in Xinjiang, 
which was carried out through the close supervision of all mosques in 
the region by local Communist Party officials. Meanwhile, hundreds of 
Tibetan Buddhist monks and nuns remain in prison for voicing their 
allegiance to the Dalai Lama and their opposition to Chinese rule. 
According to the Tibet Information Network, the State Department, and 
the testimony of former Tibetan nuns like Ngawang Sandrol, many of them 
have been severely beaten and subjected to other extreme forms of 
punishment. Some of them have died in prison.
    The USCIRF has focused considerable attention on the plight of the 
North Korean refugees. Through its public hearing in January 2002, 
investigative trips to South Korea and Japan, and regular consultation 
with policy experts and human rights advocates, the USCIRF has received 
numerous reports concerning the conditions North Korean refugees in 
China. The USCIRF has also testified before the Congress on this issue.
    China is a party to both the 1951 Convention Relating to the Status 
of Refugees and the 1967 Protocol to that convention. Under these 
treaties, China has committed to not expel or return refugees to a 
country where their life or freedom would be threatened on account of 
their religion or other status. However, since 2000, Chinese officials 
have forcibly repatriated many of the 30,000--300,000 North Korean 
refugees who are now in China to escape the dire conditions in North 
Korea, including the denial of religious freedom in that country. Not 
only does the Chinese Government refuse to grant refugee status to 
these North Koreans, it also does not allow the UNHCR to conduct 
interviews to assess refugee status or to provide services to them.

                    RECOMMENDATIONS FOR U.S. POLICY

    Three aspects have characterized recent U.S. policy to advance 
religious freedom and other human rights in China. First, the treatment 
of religious persons has been raised by President Bush and Secretary 
Powell directly to the senior Chinese leadership. Second, the U.S. has 
raised cases and sought release of those detained or imprisoned in 
violation of their human rights, including on account of their religion 
or belief. Third, the U.S. funds a multi-million dollar program to 
promote democracy and the rule of law.
    These efforts contributed to the positive developments of 2002, 
particularly with respect to Tibet. In that year, six Tibetan political 
prisoners were released from imprisonment. The Chinese Government 
invited the older brother of the Dalai Lama to visit China, paving the 
way for a visit by the Dalai Lama's special envoy in fall 2002. Indeed, 
citing ``significant but limited progress'' in a number of areas 
stemming from the December 2002 human rights dialogue, the State 
Department 
announced in April 2003 that it would neither propose nor sponsor a 
resolution censuring China's human rights practices at the 2003 U.N. 
Human Rights Commission meeting.
    One development cited as a reason for the State Department's 
decision was the Chinese Government's reported agreement to invite U.N. 
human rights mechanisms and special rapporteurs, including the Special 
Rapporteur on Freedom of Religion or Belief, to visit China without 
conditions. However, these have not taken place and there are reports 
that the conditions remain the same as in the past.
    Furthermore, even as some religious and political prisoners were 
released, during this entire period, there has apparently not been any 
systemic improvement in 
China's protection for freedom of religion or belief. Despite the 
efforts of senior U.S. officials like the Ambassador-at-Large for 
International Religious Freedom John Hanford, who has pressed the 
Chinese Government to agree to the establishment of an inter-agency 
working group of appropriate Chinese Government agencies that will 
serve as points of contact with the U.S. Government to address 
religious freedom violations, the Chinese Government has reportedly not 
taken any meaningful actions to bring about substantial improvements in 
the conditions of religious freedom in China. In fact, since the 
conclusion of the national religious affairs work meeting in December 
2001, experts and others have said that the central government has 
tightened its control over religious affairs.
    The State Department has recently changed its assessment of the 
human rights conditions in China. By the Department's own admission, 
China's conditions of human rights, including religious freedom, have 
deteriorated, citing the execution of Lobsang Dondrup, the arrests of 
pro-democracy activists, the forced repatriation of Tibetans in Nepal, 
and other human rights violations.
    This continued lack of systemic changes in the religious freedom 
conditions in China raises questions regarding the effectiveness of the 
U.S. policy during a period when the U.S. has sought Chinese support in 
the U.N. on Iraq and to help defuse the nuclear crisis in North Korea. 
Any re-assessment of U.S. policy must also take into account of past 
failures on the part of the U.S. Government to condition the expansion 
of the bilateral economic relationship and China's entry onto the 
international scene through the hosting of such public events as the 
Olympics on substantial improvements in China's religious freedom and 
human rights practices. In the remainder of this presentation, the 
USCIRF would like to offer some policy options for what the U.S. 
Government can do to advance protections for freedom of religion or 
belief in China.
    First, the State Department should use the full range of policy 
tools available under the International Religious Freedom Act of 1998 
(IRFA) to take additional actions with respect to China. The Secretary 
of State has designated China as a ``country of particular concern'' 
(CPC) under IRFA for its egregious violations of religious freedom. 
However, the Secretary has determined that pre-existing sanctions 
satisfied the IRFA requirements. While the reliance on pre-existing 
sanctions may be technically correct under the statute, it is not 
defensible as a matter of policy. Moreover, reliance on pre-existing 
sanctions provides little incentive for governments like China to 
reduce or end severe violations of religious freedom.
    Second, the State Department should provide to the Congress its 
evaluation of the impact that current U.S. rule of law and democracy 
programs have on the promotion of religious freedom and other human 
rights in China. According to the 
recent State Department report on the U.S. efforts to promote human 
rights and democracy in China, the U.S. Government supports a ``wide 
range of programs'' 
designed to promote, among other things, ``respect for freedom of 
religion.'' Yet, no information about religious freedom-specific 
programs was provided and there is no information in that report about 
the impact that rule of law and democracy programs have had on the 
actual advancement of religious freedom, or other human rights, in 
China.
    Third, the U.S. Government should enhance its public diplomacy 
efforts, focusing serious attention on the plight of the Uighur Muslims 
and Tibetan Buddhists. The U.S. Government should seek expanded 
opportunities to speak frankly and directly to the Chinese people to 
express why the U.S. Government, on behalf of the American people, is 
concerned with violations of internationally recognized human rights, 
including freedom of religion or belief. President Bush and Assistant 
Secretary Craner have done so during their visits to China, and the 
USCIRF is seeking a similar opportunity during its upcoming visit.
    The expansion of broadcasts by Radio Free Asia and the Voice of 
America are also important to this effort. In addition, the U.S. 
Government should support exchanges between Chinese, including Tibetans 
and Uighurs, and U.S. scholars, experts, 
representatives of religious communities and non-government 
organizations, and appropriate officials regarding the relationship 
between religion and the state, the role of religion in society, 
international standards relating to the right to freedom of religion 
and belief, and the importance and benefits of upholding human rights, 
including religious freedom.
    Fourth, the U.S. must be consistent in our message that religious 
freedom will remain a priority in U.S. foreign policy and in our 
assessment of progress in China's human rights practices. China must 
know that we will continue to raise this issue until they fully comply 
with their international obligations. As a key component of this 
effort, until China significantly improves its protection of religious 
freedom--systemic improvements that will prevent further serious 
violations--the U.S. should propose and promote a resolution to censure 
China at the U.N. and its Commission on Human Rights. This is extremely 
important as the U.S. stands virtually alone in striving to focus world 
attention on China's specific violations of human rights.

                               CONCLUSION

    Mr. Chairman, as China continues its political and economic 
transformation, the United States must consistently remind the Chinese 
Government that the protection of human rights, including religious 
freedom, is critical to strong and vibrant society and economy. The 
rights of the Chinese people must be protected, and the United States 
should be prepared to assist in this regard.
    Thank you for the opportunity to testify. I look forward to your 
questions.

                 Prepared Statement of Joseph Fewsmith

                             JULY 24, 2003

    I have been asked to testify about political trends in contemporary 
China and their implications for state-society relations, including 
religious affairs. This is an enormously complicated topic, and this 
short discussion can hardly cover it adequately. All I can do is to try 
to pick out some trends and identify their importance for understanding 
contemporary Chinese society, including the place of religion.
    As you know, China has undergone a major leadership transition in 
the past year. This is really the first political transition China has 
had since the revolutionary generation has left the scene. Although I 
believe that we have seen signs of tension within the leadership--not 
unexpected--so far the transition has gone well and the new leadership 
is moving forward on an agenda that seeks both to build on the 
successes of the past decade and more and to correct the excesses that 
have emerged.
    On the one hand, in response to the very rapid growth of the 
private economy over the past decade, the former general secretary of 
the Chinese Communist Party (CCP), Jiang Zemin, on July 1, 2001, called 
for opening up the CCP to ``outstanding elements'' from the new social 
sectors that have emerged in recent years, including private 
entrepreneurs. This call, which was endorsed by the Sixteenth Party 
Congress last November, was in part a ratification of de facto 
changes--in fact, some 20 percent of private entrepreneurs are already 
CCP members (most of them joined the party first, then ``jumped into 
the sea'' of business). It was also a recognition that economic change 
and technical innovation are not being driven forward by the sorts of 
industrial workers depicted in traditional Marxist-Leninist literature 
and art but rather by the technically trained people being generated by 
Qinghua and other elite universities.
    The change here that strikes me as really important is that by 
drawing party membership from all segments of society--not only in 
practice but in doctrine--the CCP is rejecting the notions of class 
struggle, both domestically and internationally, on which it was built. 
This change, it strikes me, is critical for building a more tolerant 
and democratic future.
    On the other hand, the new leadership under general secretary Hu 
Jintao and premier Wen Jiabao have been emphasizing such issues as rule 
by law, opposition to corruption, social equality, and concern for the 
``masses.'' These emphases speak to major problems facing China in the 
early twenty-first century, including growing inequality, corruption, 
unemployment, the emergence of urban poverty, the abuse of authority, 
social disorder, and a general sense that the party is remote from and 
not concerned with the people. In response, the party has been 
exploring ways to increase accountability and to expand decisionmaking, 
at least within the party. In recent years there have been calls for 
``inner party democracy.'' There is much talk these days in party 
journals about setting up a system in which a standing committee of the 
party congress--a body that normally meets only every 5 years--would 
stay in session to supervise the implementation of policy. There is 
also much talk of institutionalizing procedures in which the whole 
membership of the party, not just the standing committee or top leader, 
would vote on major issues. There is also talk and some experimentation 
with trying to separate the powers of decisionmaking from 
implementation and supervision--in other words of creating some sort of 
check and balance system within the party. Finally, there have been 
regulations issued to expand the number of people involved in promoting 
party officials in an effort to break up small cliques of people and to 
enhance accountability. Such changes, still very nascent, reflect as 
realization within the CCP that Chinese society is changing--the 
populace is increasingly well educated and has a greater sense of its 
rights and accordingly demands greater accountability from its leaders 
and greater adherence to law.
    Such changes in the party are interesting precisely because the 
party is the most conservative organization in China. It very much 
desires to stay in power and to maintain control over Chinese society. 
But if it is to have any chance to do so, it must change.
    It must change because of the rapid expansion of the private 
sector, the large-scale immigration of workers from the rural 
agricultural areas to the cities, changes in social values, and the 
expansion of societal organizations.
    In the 1990s there was a very rapid growth of non-governmental 
organizations (NGOs) in China; by the latter half of that decade they 
numbered over 700,000. Most of these are affiliated in some fashion 
(and all must register) with a government office, from which they 
typically derive at least some of their funding. Thus, many people 
speak of these organizations as ``government organized non-governmental 
organizations,'' or GONGOs for short.
    The rapid growth of such intermediary organizations led many in the 
West to argue that China was developing a civil society similar to what 
has taken place in many parts of the world. Civil society is frequently 
seen as a necessary precondition of democratization.
    But intermediary associations in China do not fit easily into 
Western categories. In the West we tend to distinguish between the 
state, the public, and the private spheres, seeing intermediary 
organizations as a distinct from the government and articulating social 
demands against the government. China has a very long history of 
intermediary associations if such phenomena as clan associations and 
guild associations are taken into account. Although scholars debate the 
role of such organizations, it seems that a clearly articulated public 
sphere never emerged. The idea of social organization articulating 
private interests against the government was certainly never accepted 
normatively; China's final dynasty (the Qing), for instance, had a 
specific legal prohibition against the formation of scholarly 
associations, fearing that they would become the basis for factional 
intrigue against the government, as they had in the late Ming dynasty.
    There are at least two points here that I think are worthy of 
consideration. First, the notion of ``private'' has traditionally been 
understood quite differently in China than in the West. We have tended 
to see ``private'' as good; the expression of partial interests is 
central to our notion of pluralism. In traditional China, the term 
``private'' (si) was generally viewed as the antithesis of ``public'' 
(gong). The government, specifically the emperor, was supposed to 
embody notions of ``public.'' China has a long history of supporting 
remonstration against the wrong policies of the emperor but such 
protests always had to be coached in terms of ``publicness;'' 
articulating a private, partial interest was taken as by definition in 
opposition to ``public.'' Even when China witnessed the development of 
chambers of commerce and other intermediary associations in the early 
part of the twentieth century, the issue of their representing private 
and partial interests was fudged. Writers generally depicted merchants 
as coming together to decide on the one correct policy, ignoring the 
inevitable differences between large and small merchants, importers and 
exporters, manufacturers and distributors, etc.
    Second and relatedly, Chinese Governments throughout the twentieth 
century have either forced chambers of commerce and other voluntary 
associations into established hierarchical, corporatist structures or 
abolished them all together. The first pattern was adopted by the 
Nationalist government after it was established in 1928; the Communist 
government after 1949, and particularly after 1956, abolished most 
intermediary associations and those that were retained were expected to 
play the ``transmission belt'' role assigned to such organizations in 
Leninist systems. With the onset of the reforms, and particularly with 
the changes in state-society relations in the 1990s, the State has on 
again been adopting corporatist structures. Intermediary associations 
are supposed to register with the Ministry of Civil Affairs and accept 
State supervision. This does not mean that they are simply extensions 
of State power; frequently they are able to inject local interests and 
concerns into the policymaking process. But it does mean that the whole 
conception of a sharp distinction between public and private that we in 
the West are accustomed to and the corresponding notion that public 
policy is and should be derived from the push and haul of interest 
group politics is very foreign from the Chinese experience, both in the 
Communist era and before.
    Religious organizations and activities are special types of 
intermediary associations, based as they are on the spiritual needs of 
their adherents, their tendency to absorb large numbers of believers, 
and the ability to mobilize large number of adherents around a cause. 
As with other forms of intermediary associations, the Chinese State has 
had long experience with religious organizations, much of it unhappy 
from the state's point of view. There is a certain irony in this in 
that scholars who study the origins of the Chinese State and the 
monarchical system note that the authority of early emperors was based 
on the emperor as the link between the human world and the heavens. 
Ancestor worship played an important role in this regard, and the 
emperor's family tablets established a legitimate and sacred line. In 
other words, monastic political authority was anchored in religious 
concepts.
    Other families or religious organizations that challenged the 
central role of the emperor's family tablets were seen as a threat to 
the state, and dealt with accordingly. Although there were periods in 
Chinese history when Buddhism and Daoism occupied important places in 
the polity, the state ultimately asserted its authority over these 
religions. Thus, the Chinese State never allowed a powerful, organized 
clergy to develop.
    The hostility of the Chinese State toward religious organization--
and here I want to be very clear that what the Chinese State opposed 
was not the practice of religion but the emergence of powerful 
religious organizations that could challenge the authority of the 
state--was rooted in painful historical experience. Repeatedly 
religious organization of one sort or another has been used to mobilize 
peasant revolts against the state, and some of these have been 
successful. Examples of such revolts stem from the Yellow Turban 
Rebellion of the Han Dynasty to the White Lotus, Taiping, and Boxer 
rebellions of the late 18th and 19th centuries. Such experience has 
left a very deep imprint on Chinese political culture.
    One might say that there is both a positive and a negative side to 
this political culture. On the one hand, the Chinese state, 
particularly in its modern form, is staunchly secular. Most (but not 
all) intellectuals in China today reject religion. The upshot of this 
is that they are relentless modernizers. One does not see the 
religiously inspired rejections of modernity in China that one sees in 
some parts of the world.
    On the other hand, the Chinese State has continued to see religious 
activities that are organized outside of State control as potential 
sources of social instability. As with other forms of voluntary 
associations, the Chinese State has tried to force religious adherents 
to participate in one or another of the state-organized and controlled 
religious associations. Many religious adherents have not been willing 
to 
accept these restrictions, and that is where one sees the suppression 
of religious freedom. One might add that many government modernizers 
see religious organizations as inimical to their goals of economic 
development and therefore see little wrong with their suppression.
    I should add that I know of very little academic research that has 
been carried out on the sociology of religion in contemporary China. We 
know very little about who converts to what religion and for what 
reason. We do know that in some parts of the country, the growth of 
religion coexists surprisingly amicably with the state. As I stated, 
the Chinese State can be tolerant of religious beliefs as long as it 
does not challenge state authority. But in other parts of the country, 
religious organizations are suppressed harshly. Sometimes these 
different responses seem to depend on such ad hoc factors as the 
relations between the local party cadre and the religious leaders; in 
other instances, different patterns appear to reflect different socio-
economic conditions. But as I say, we know too little about this to 
draw strong 
conclusions. Serious research is needed.
    The difference in attitudes about religious expression is one of 
the most sensitive and difficult gaps that exist between the United 
States and China. The United States was founded upon the idea of the 
free expression of religious beliefs, and we have witnessed a 
resurgence of religious feeling in recent years. The Chinese State has 
never condoned the free organization of religious communities, and the 
political elite remains rather hostile to religious beliefs and 
movements. It is important to bear in mind, however, that these 
attitudes are rooted not just in the authoritarian rule of the Chinese 
Communist Party but also in millennia-old cultural attitudes.
    I am not one to argue that cultures cannot change--they do. But one 
cannot simply disregard them and expect that they can change over 
night. Indeed, I think that if one looks seriously at the magnitude of 
changes sweeping Chinese society over the past two and a half decades, 
one has to be impressed by the breath, depth, and speed of the changes. 
It is not just that the economy has grown, but that the organization of 
the economy and society have changed and new ideas and attitudes have 
emerged. The very rapid growth of intermediary associations is a case 
in point. There is a new emphasis among younger people on individualism 
and consumerism that shocks their elders. Attitudes change, but they do 
so over time and within their own context.
    I think that the greatest hope for new attitudes toward 
intermediary associations and religious expression lies in the growth 
of a middle class in China. Historically China has never been a middle 
class society (another contrast with the United States which has always 
been a middle class society). It is only in the past two decades that 
we have seen a semblance of a middle class emerge in China. Estimating 
the size of this class is difficult, but a recent study in China 
projected it at 15 percent of the population. This is far from enough 
to call China a middle class society. Income distribution still tends 
to look more like a convex curve (with a small wealthy class at the 
top, almost nothing in the middle, and a very large group of people 
with average incomes or less) than the olive shaped pattern associated 
with middle class societies. Given the huge size of the Chinese 
population and the great disparities between the urban areas and the 
countryside, it will take a very long time--decades--for China to 
become a middle-class society. But I would guess that as that 15 
percent figures grows toward, say, 25 percent over the next decade or 
so, one is likely to see a better social framework for social stability 
and hence greater tolerance toward a variety of attitudes--
intellectual, social, religious, etc.
                                 ______
                                 

             Prepared Statement of Charles D. Lovejoy, Jr.

                             JULY 24, 2003

    Let me first thank the Commission for this opportunity afforded the 
US Catholic China Bureau to offer some brief comments on the issue of 
religious freedom in China today with special reference to the Catholic 
Church.
    Since the late eighties, there has been a tremendous upsurge of 
activity both on the institutional and community levels in the 
Christian churches in China. The Catholic Church, while continuing to 
struggle with solutions to its own internal problems of division, 
caused in the main by external political pressures, has grown fourfold 
since 1949, even by conservative estimates.
    Despite strict oversight of religious believers of all traditions--
which varies in implementation from region to region, and from time to 
time--the statistics for the Chinese Catholic Church are indicative of 
the courageous efforts of Chinese Catholics to restore, renew, and 
develop their Church, both as an institution and as a community of 
Faith. A recent edition of Maryknoll Magazine, for example, featured a 
short article on a vibrant Catholic community at Taiyuan in Shanxi 
Province that had just completed a stunning new church of traditional 
Chinese design. Submitted with this statement as Attachment A is a 
statistical profile which attests to the vibrancy of the Catholic 
Church in China today.
    Recently, the State Administration for Religious Affairs [SARA] 
issued three draft documents to ``solicit opinions,'' with these 
ostensibly stated purposes as follows:

    1. Method of Management of Catholic Dioceses in China: ``formulated 
for the purpose of spreading the Gospel, to put into practice Christ's 
redemptive love and to adapt to the needs of the times and requirements 
of social development.''
    2. Rules for the Work of the Patriotic Association of Chinese 
Catholics: ``to completely bring into play the functions of the CPA on 
the national and local levels, and to promote the standardization and 
systematization of the CPA.''
    3. Method of Work of the Unitary Assembly of the Patriotic 
Association of Chinese Catholics and of the Chinese Catholic Episcopal 
Conference: ``formulated . .  to make more complete and to intensify 
the Chinese Catholic independent enterprise . . . in accordance with 
the democratic principles of administering the church, namely, 
collective leadership, democratic supervision, mutual consultation and 
joint decision.''

    However, these regulations actually reflect a general tightening up 
and, in effect, renewed efforts to strictly enforce existing religious 
policy and regulations regarding registration of places of worship. 
Another major objective appears to be pressuring unregistered 
leadership and communities to join with the registered communities of 
Catholics in each diocese.
    The 3rd document in making reference to ``the Chinese Catholic 
independent enterprise'' raises some concerns--if the term 
``independent'' is to be interpreted as cutting the China Catholic 
Church off from communion with the Universal Church. If it is intended 
to mean an authentic autonomy vis-a-vis both external and internal 
(i.e., domestic) intrusion into the affairs of the Church we would 
applaud it as a goal.
    While reconciliation and unity among Chinese Catholics and with the 
universal Church is a long-desired goal, when this is done by coercion 
or force, let alone with violence in any given situation, it is very 
reprehensible and unacceptable to all partners in the dialogue.
    The Union of Catholic Asian News (UCAN), has reported numerous 
instances of such use of force and coercion increasingly in the past 
year or two--especially selected dioceses in Hebei, Fujian, and 
Zhejiang Provinces. UCAN, reported the arrest on June 16, of Rev. LU 
Xiaozhou, a priest in Wenzhou Diocese, associated with an unregistered 
Catholic Church, as he was en route to visit the sick at the city 
hospital. He was then transferred to the custody of the local Religious 
Affairs Bureau. Frequently, such detentions are reported to be used to 
force people to sign agreements to join the Catholic Patriotic 
Association.
    It is always difficult, to cite specific instances of repression, 
which occur more frequently in more remote areas in China; or even to 
validate reports in the secular/religious media of such instances of 
force, coercion or violence against those who, for legitimate reasons 
of conscience, find themselves unable to comply with official and 
religious regulation and policies. These situations are usually very 
volatile and ambiguous; and often, local security authorities claim 
another pretext for action, than strictly religious grounds; for 
example, violations of building codes; or unapproved contacts with 
certain people or groups. In this regard, China continues to deny that 
it persecutes religious groups as such; and stands by the ``religious 
freedoms'' guaranteed in Article 36 of its Constitution.
    I wish to nuance these remarks by admitting here that USCCB does 
not have the resources or staff to closely monitor these developments 
on the ground. We defer in these matters to reputable sources like 
Amnesty International or Human Rights Watch/Asia and so forth. We never 
rely on media reports which we find frequently unreliable. Second, our 
priority and programs are dedicated to enabling the Church in China and 
its leadership to restore, renew and develop as a truly authentic Local 
Roman Catholic Church--in full communion with the Universal Catholic 
Church [cf. USCCB mission statement--submitted as Attachment B].
    As noted in our statement to this Committee last year, ``USCCB 
seeks to promote full exercise of human rights and religious freedom of 
all religious believers in China; and takes as its special mandate the 
provision of services and programs to empower Chinese Catholics to be 
able to assume and exercise their religious rights and freedoms, as 
such rights of citizenship, guaranteed in the Constitution, are 
implemented in every sector and at every level of Chinese society.''
    At the CECC hearing on this issue last year, the statement 
submitted to this Committee by Thomas Quigley of the US Catholic 
Bishop's Conference highlighted major recent initiatives by the Holy 
See to improve relations with China, including the Ricci Symposia of 
2001 at which Pope John Paul II expressed his hope that the Church 
would contribute toward China's social progress; and graciously offered 
an apology for ``errors and limits of the past'' in the pursuit of 
Christian Mission in China.
    The Holy See continues to pursue its dialogue with the Chinese 
government in several quarters; and continues efforts for 
reconciliation and unity in the Church in China. For example, it is 
seeking to identify bishop-candidates [to succeed elderly bishops, both 
official/unofficial] who will be acceptable to all segments of the 
Catholic Church in China, and merit recognition of their rightful 
ecclesial role by the authorities of SARA. Hopefully, this initiative 
by the Catholic Church authorities may lead to deeper reconciliation; 
and to the removal of one of the proximate causes for these severe 
``crackdowns'' and abrogation of the rights of believers, guaranteed by 
the aforementioned Constitutional provisions.
    With regard to the policies and programs of the China's new 
leadership, it is too early to determine what direction these may take. 
Transition is usually a time of uncertainty and the three recent Draft 
documents on Church Regulations mentioned above may simply reflect an 
inherent tendency toward restriction during such periods of transition.
    We believe therefore that options pursued by the US Government 
should be in context of a policy of consistency, justice and honesty in 
dealing with China in the political, social/religious and economic 
arenas. The Chinese government respects, and works best when confronted 
with, principled, well- articulated and consistent positions that also 
respect basic Chinese values and are based on commonly accepted 
international principles.
    We also strongly urge continued support for the wide range of 
general academic and social exchanges that have emerged over the past 
10 years. We note with some encouragement the increased interest in 
Christianity in academic circles and the fact that US Christian 
universities now sponsor programs, though secular in nature, 
collaborating with major Chinese universities.
    Historically, China did not develop the tradition of Civil Society, 
let alone a democratic political ethos. Therefore, education and 
gradual fostering of social consciousness among the people must go 
first toward these noble ends. Understanding of the positive role of 
religion in society should increase as the general understanding of the 
nature of a civic society increases in China.
    Modernization and globalization pose serious challenges to the 
faith and practice of their religious beliefs and convictions for 
Catholics in China. Ironically, this continued political pressure on 
bishops, priests, religious sisters and lay leaders in effect hinders 
them from properly dealing with challenges of contemporary Chinese 
society, as it undergoes rapid transformation in the economic and 
social fields. As our Holy Father, Pope John Paul II has repeatedly 
stated, Chinese Catholics, faithful to their Church and loyal to their 
nation, as patriotic citizens, can make a great contribution to 
strengthen the ethical and moral fiber of the Chinese Nation--so it may 
play its rightful role in the Family of Nations--in quest of world 
peace and justice for all peoples.
    We are convinced that encounters between the American and Chinese 
people demand respect for China's culture and social mores, which are 
different from those of the West. In such encounters, it is always 
helpful to acknowledge one's own shortcomings, especially when 
challenging others. One should also try to avoid confrontation; and 
making harsh judgments that unduly simplify complex realities; and even 
unjustly disparage different, but equally legitimate options. As such, 
USCCB would urge the committee, and through it, the present 
administration of the USA government, to seek to identify and encourage 
those leaders in the PRC who are working to bring about positive change 
in a manner that will preserve social stability and well-being. We 
should join our collaborative efforts to realize the development of a 
Civil Society, able to positively exploit the best of modernity for the 
Chinese people.
    This is the approach USCCB strives to take in working with the 
catholic communities and their leadership in China, to assist them to 
prepare for a role in the New China, and indeed to engage in programs 
to bring it about. By way of illustration, I would refer you to the 
theme of our 20th National Catholic China Conference, ``The Role of 
Religion in China's Emerging Civil Society,'' to be held this coming 
November. Information is available on our website at www.usccb.net and 
on the attachments submitted with this intervention.
    We thank the commission and its members for this opportunity to 
comment on the general situation of religious freedoms in China, and in 
particular, the prospects for the flourishing of religion under the new 
leadership. We applaud its continued efforts to promote understanding 
of the critical issues facing the Roman Catholic Church and indeed all 
the religious traditions in China today.

           ATTACHMENT A: THE CATHOLIC CHURCH IN CHINA PROFILE

      ATTACHMENT B: THE US CATHOLIC CHINA BUREAU/MISSION STATEMENT

Attachment A

                      The Catholic Church in China

    Since the early eighties, the People's Republic of China has 
continued to initiate contacts and respond to overtures of the 
international community in political, social, cultural, economic and 
other sectors, including the religious arena. Many segments of U.S. 
society are re-engaged with China and the Chinese people, as they meet 
the challenges of modernization in the Third Christian Millennium.
    Since the late eighties, the tremendous upsurge of activity on both 
the institutional and community levels in the Christian churches has 
been an amazing and inspiring discovery for many. Since the Chinese 
Catholic Church was cutoff from relationships with the Universal Church 
for more than thirty years, accurate, reliable information was not 
easily available. The Catholic Church--while continuing to struggle 
with solutions to its own internal problems of divisions [caused by 
external political pressures]--has grown fourfold since 1949, even by 
conservative estimates. In the past 20 years, it has experienced a 
phenomenal interest in religious vocations to priesthood and religious 
life. Widespread interest in Christianity in intellectual circles is 
manifested by establishment of Religious Studies Departments in many 
major universities in China.
    Despite strict oversight of religious believers of all traditions--
implementation of which varies from region to region, and from time to 
time--the statistics for the Chinese Catholic Church for 2002 are 
indicative of the courageous efforts of Chinese Catholics to restore, 
renew, and develop their Church, both as an institution and as a 
community of Faith.

             A Profile of the Roman Catholic Church in China



Catholics...............................................      12,000,000
Dioceses................................................             138
Churches................................................          5,000+
Bishops.................................................             117
Priests.................................................           2,650
Sisters.................................................           4,900
Seminaries..............................................              34
Seminarians.............................................           1,670
Novitiates..............................................              40
Sisters in Formation....................................           1,800

[Figures are for both the registered and the unregistered Catholic
  communities--Tripod Dec. 2002]

    In the tradition of the long missionary relationship between 
Chinese and American Catholics, it is important for the U.S. Church to 
be sensitive to these developments and seize the opportunity of this 
new moment in history to work together as Sister-Churches to witness 
and to serve the Gospel in 21st Century China.
    If you would like to assist the Church in China, please contact: 
U.S. Catholic China Bureau, Seton Hall University, South Orange, NJ 
07079-2689.
    Tel: 973-763-1131; Fax: 973-763-1543
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4e4544434c4f585f6d5e455803484958">[email&#160;protected]</a>; Web: www.usccb.net
                                 ______
                                 
Attachment B

                  United States Catholic China Bureau

                           MISSION STATEMENT

    The U.S. Catholic China Bureau exists to foster communication and 
friendship with the people of China through sharing the values of the 
Gospel of Jesus Christ.
    Founded in 1989, with the encouragement of the National Conference 
of Catholic Bishops, the Bureau is sponsored by a cross-section of 
Roman Catholic organizations and individuals in the United States who 
share its purposes and goals.

                            GENERAL PURPOSES

    <bullet> To promote understanding among American Catholics about 
the Catholic Church and the situation of the Catholic communities in 
China.
    <bullet> To engage the American Catholics in a new missionary 
partnership with the Catholics in China.

                                 GOALS

    <bullet> To promote the development in China of a fully indigenized 
Local Church with adequate leadership and resources for the pastoral 
service of the Chinese people.
    <bullet> To foster reconciliation and unity of the Chinese Catholic 
Church within the universal Church and under the Apostolic See.
    <bullet> To foster mutually beneficial relationships between 
Catholics in the sister-churches of China and the USA.
    <bullet> To enable the American Christians to encounter and 
understand the experience of Christians in China in the second half of 
the 20th century so as to deepen and strengthen our own faith 
commitment and the missionary dynamism.
    <bullet> To collaborate ecumenically, and with other religious, 
educational and cultural programs and organizations consonant with the 
purposes and goals of USCCB.
    <bullet> To promote the full exercise of human rights and religious 
freedoms for people in China.

                            MAJOR ACTIVITIES

    <bullet> Publication of the China Church Quarterly distributed on a 
subscriber basis.
    <bullet> Organization of the National Catholic China Conference 
annually.
    <bullet> Sponsorship of Religious Study Tours to the PRC.
    <bullet> Recruitment and screening of qualified persons from the 
U.S. Church to give Christian witness and service in tertiary 
educational institutions in China.
    <bullet> Providing lectures, seminars and workshops on topics of 
interest to persons in the U.S. regarding religion and Christianity in 
China.
    <bullet> Resourcing the religious news services and secular media 
with accurate and documented information on religious issues in China; 
the history and contemporary developments of Christianity in China; and 
news and information about the Catholic Church in China.
    <bullet> Providing consultation and referrals on other China-
related programs and activities of religious and non-profit 
organizations.
    <bullet> Channeling material resources and provision of services 
which address expressed needs of Catholics in China.

    The Bureau is incorporated as a non-profit, tax exempt organization 
in the State of New Jersey. It maintains an office on the campus of 
Seton Hall University. Contributions to the Bureau are deductible for 
Federal income tax purposes.
                                 ______
                                 

                Prepared Statement of David B.T. Aikman

                             JULY 24, 2003

         China's Approach to Religion During the Hu Jintao Era

    Political change, even in a country like China that has a one-party 
political system, often raises hopes for change in many other areas of 
society. Whether the issue is environmental policies, foreign affairs, 
or education, people often assume that a new leader will bring new 
perspectives to old problems. But in the case of China, the elevation 
of Hu Jintao to General Secretary of the Chinese Communist Party and to 
the highest State office offers little immediate promise that the 
approach of the Chinese government to religious practice will change.
    Hu, believed to be from a family with strong Buddhist leanings, was 
at one time responsible for the implementation of Communist policy in 
Tibet. During his years there, it became apparent that the priority of 
China's leaders was to maintain the primacy of Han Chinese political 
control and to prevent the emergence of any Tibetan groups that might 
articulate Tibetan national and religious aspirations. Whether then or 
later, Hu seems to have become acquainted with Mr. Ye Xiaowen, since 
the early 1990s the director of China's Religious Affairs Bureau, later 
renamed the State Administration for Religious Affairs (SARA). Mr. Ye, 
a self-professed atheist and committed Communist, has demonstrated 
throughout his leadership of RAB/SARA a commitment to vigorous 
implementation of China's religious policies at the grass-roots level. 
Ye has expressed the opinion, for example, that Christianity has been 
growing ``too fast'' in some parts of China, and at different times he 
has tried to insert his own opinions of Protestant theological issues 
into the administration of the Three-Self Patriotic Movement (TSPM), 
China's officially approved agency for the implementation of State 
religious policy in respect to China's Protestants.
    Even officials of the China Christian Council, the ecclesiastical 
structure that determines personnel and theological issues within the 
TSPM, have privately complained that RAB/SARA consistently interferes 
with ordinary church work. RAB/SARA officials at the provincial level, 
for example, sometimes arbitrarily determine how many graduates of the 
theological colleges may actually be ordained within a specific time-
frame.
    The government policy on how to deal with religion in China was 
inherited by Hu Jintao from a top-level Communist Party conference on 
religion that convened in December 2001; in effect 3 months after the 
implications of the September 11 
terrorist attacks on New York had been digested in Beijing. Though 
Islam was not specifically mentioned in published reports of that 
conference, China's political leadership appears to have decided that 
any religion in China, if not strictly supervised, could turn into the 
regime's Achilles heal. ``The Party and Government,'' the official 
People's Daily account of the conference said, ``can only strengthen 
their leadership over religious work and their supervision over 
religious affairs. They cannot allow them to weaken.'' China's then 
Communist leader President Jiang Zemin was quoted as saying that the 
``gist'' of supervision of religious affairs was: ``Protect the legal, 
Wipe out the illegal, Resist infiltration and attack crime.''
    In fact, Jiang's speech at this December 2001 conference reiterated 
points previously articulated by RAB/SARA director Ye Xiaowen. Ye has 
said: ``Following the ever-greater progress in human society, religions 
will more and more absorb certain secular moral values and rational 
elements, and leave behind their fanaticism and fervor, and gradually 
conform and adapt to real society.'' In effect, Ye seemed to be 
asserting the right of China's Communist and State authorities to force 
religious thought into a mold compatible with the official socialist 
and secular world view of China's ruling Communist Party. That approach 
seems to have been continued during the administration of Hu Jintao. 
For example, efforts to force Protestant Christianity to ``absorb 
certain secular moral values'' have been underway for nearly half a 
decade at the Jinling Theological Seminary in Nanjing, the national 
seminary of China's officially recognized Protestantism. Under the 
direction of China's most prominent Protestant leader, Bishop Ding 
Guangxun, former head of both the TSPM and the China Christian Council 
and still, in his late eighties, president of the Nanjing Theological 
Seminary, teachers and students at the seminary have been subjected to 
a campaign to impose upon them a ``theology of reconstruction.'' In 
essence, this ``theology'' is a repudiation of the conservative 
evangelical viewpoint of the overwhelming majority of China's 
Christians. Efforts to thrust this new theology down the throats of 
pastors, officials, teachers, and seminary students associated with the 
China Christian Council appears to many a throwback to the ugly, 
coercive political campaigns orchestrated by Chairman Mao Zedong in the 
1950s. At that time Bishop Ding was a leader in efforts to humiliate in 
the public media all Protestant Christians who were unwilling to be 
associated with the Three-Self Patriotic Movement.
    The actual implementation of policies to control religious 
expression at China's grass-roots has certainly been deeply affected by 
the campaign to eliminate the meditation group Falun Gong. It is 
unfortunate that the unusual teachings of Falun Gong, and in particular 
the near-divine status attributed to the group's founder, Li Hongzhi, 
now resident in the U.S., have deflected what might have been popular 
disapproval among Chinese of the brutal methods used against Falun Gong 
practitioners. The vast majority of ordinary Chinese, including Chinese 
Christians, believe that Falun Gong is indeed an anti-social cult with 
potentially dangerous implications. However mistaken or unfair such 
apprehensions of Falun Gong may be, they have had two results: a broad 
disapproval of Falun Gong among most Chinese, and an energized 
suppression of all religious groups with even the remotest possibility 
of being called a ``cult.'' An indirect consequence has been an intense 
suspicion by the authorities of any Chinese politically opposed to the 
government who also have strong religious convictions.
    In May 2003, the U.S. Commission on International Religious Freedom 
noted in its annual report that there had been a ``deterioration of 
protections for religious freedom in China.'' It went on: ``The Chinese 
government commits numerous egregious violations against members of 
many of China's religious and spiritual communities, including 
Evangelical Christians, Roman Catholics, Tibetan Buddhists, Uighur 
Muslims, and other groups, such as the Falun Gong, that the government 
has labeled 'evil cults.''
    To itemize just a few of the ``ordinary'' harassment of China's 
Protestant and Catholic Christians in the past several months, here are 
some incidents:

    <bullet> July 1, 2003--Authorities arrested 5 Roman Catholic clergy 
at Siliying in Boading, Hebei province, approximately 70 miles from 
Beijing. The five priests were all on their way to visit another 
Catholic underground priest, Fr. Lu Genjun, who had just been released 
from 3 years' imprisonment in labor camp.
    <bullet> June 16, 2003--A Catholic priest, Fr. Lu Xiaozhou, was 
arrested in Wenzhou, Zhejiang province, as he was about to administer 
the Sacrament of Anointing for the Sick to a dying Catholic.
    <bullet> June 15, 2003--Authorities raided a house church in 
Liaoning province. 40 Christians were tied up and arrested. They were 
told their gathering had been ``illegal.''
    <bullet> June 11, 2003--Reports from the Jingzhou prison where 
imprisoned South China Church leader, Gong Shengliang has been held, 
said that Gong had been repeatedly beaten and was passing blood and 
urine as a result of his injuries.
    <bullet> June 6, 2003--Some 12 Christians were arrested in a raid 
on four homes in Yunnan province. At least eight of the 12 have been 
sent to re-education through labor camps. This punishment can be meted 
out without any court procedure up to a maximum of 3 years at a time.
    <bullet> April 4, 2003--120 house church leaders from the Local 
Church were arrested in Henan province. Twenty were later released, 
leaving the remaining 100 in custody.

    There are certainly other incidents for which there is insufficient 
space here to provide details.
    Meanwhile, though the incidents do not relate directly to religious 
practice in China, but to their political activities, there are two 
very prominent cases of Chinese Christians who have been held for 
months without charge or trial, or at the very least held under very 
suspicious circumstances.
    The first incident concerns a prominent Chinese physician, 
permanent resident of the U.S., Dr. Wang Bingzhang. Dr. Wang, who has 
lived in the U.S. since the early 1980s, has been active in China's 
fledgling democracy movement among Chinese in exile or temporarily 
outside China. Wang has been a leading figure in the Free China 
Movement, an umbrella grouping of some 30 organizations advocating 
democracy and human rights in China.
    Wang and two Chinese traveling companions were kidnapped in broad 
daylight outside their hotel in the northern part of Vietnam in June 
2002. Their kidnappers were men wearing Vietnamese police uniforms but 
speaking fluent Mandarin Chinese. Wang and his companions were taken by 
car to a waiting boat which then took them across the border to China. 
Wang was found tied up in a Buddhist temple in Yunnan province. The 
Chinese police asserted that he had been kidnapped by a gang that was 
demanding $10 million in ransom money.
    The Chinese police who supposedly came upon Wang Bingzhang and his 
companions providentially learned that Wang was wanted on ``terrorism'' 
charges in Shenzhen, Guangdong province. After several months of being 
held in Shenzhen incommunicado, during which the Chinese foreign 
ministry repeatedly denied having any knowledge of Wang's whereabouts, 
Wang's two companions were released. Wang himself was sentenced in 
February 2002 to life imprisonment on charges of ``terrorism.''
    Wang was a qualified physician and a deeply committed Protestant 
Christian. The notion that this 55-year-old churchgoing medical 
professional was engaged in terrorism is as plausible as the notion 
that China's political authorities are willing to implement legal due 
process in the country.
    The other case of egregious persecution of a political 
oppositionist of Christian faith is that of Yang Jianli. Arriving in 
the U.S. in 1986, Yang earned a Ph.D. in Mathematics from the 
University of California at Berkeley and a Ph.D. in political economy 
from Harvard University. A winner of numerous academic and other 
awards, Yang was the founding president of the Foundation for China in 
the 21st. Century, a non-profit organization dedicated to the 
establishment of democracy in China. He has appeared several times to 
give testimony before numerous Congressional hearings on Capitol Hill. 
He was an eyewitness of the June 4 Tiananmen Massacre in Beijing. In 
June 2003, the House passed Resolution 199 condemning the fact that 
Yang had already been held for nearly a year without criminal charges 
being filed, or access to a lawyer, or any contact with his family or 
relatives. Finally, after nearly 15 months of incarceration, he was 
formally charged last week with spying for Taiwan and permitted for the 
very first time to see his lawyer. He was also a devout Christian and a 
member of All Saints' Episcopal Church in Brookline, MA.
    Wang Bingzhang and Yang Jianli were certainly opposed to the 
current political system in China and did their best to advocate 
change. To that extent, there were no friends of China's Communist 
Party leadership. It is true that they were not specifically charged 
with any crime related to religious practice. But their desire to see a 
more open China, a China in which freedom of conscience would be 
written not just in the heart yearnings of their compatriots but in the 
manuals of China's police authorities is one which all men and women of 
faith can and should support. It is my hope that the Congressional 
China Commission will look broadly into statements and actions that 
uphold the American conviction of the inviolability of freedom of 
conscience and religious practice.
                                 ______
                                 

               Prepared Statement of Jacqueline M. Armijo

                             JULY 24, 2003

    I would like to thank the Committee for inviting me to share my 
knowledge of the history and contemporary situation of the Muslim 
peoples of China. This knowledge is based on more than 20 years of 
research on this highly important, but neglected topic, and more than 7 
years lived in China.\1\
---------------------------------------------------------------------------
    \1\ I first studied in Beijing from 1982-83 while an undergraduate, 
and returned in 1993 to complete my doctoral dissertation on the early 
history of Islam in China. I subsequently worked as a consultant on 
HIV/AID prevention projects, and minority education projects.
---------------------------------------------------------------------------
    With a Muslim population conservatively estimated at 20 million, 
China today has a larger Muslim population than most Arab countries, 
and yet little is known about this community. Of China's 55 officially 
recognized minority peoples, 10 are primarily Muslim: the Hui, Uighur, 
Kazak, Dongxiang, Kyrgyz, Salar, Tajik, Uzbek, Bonan, and Tatar. The 
largest group, the Hui, are spread throughout the entire country, while 
the other nine live primarily in the northwest. I will begin by 
concentrating on the Hui, and then address the situation of the Uighurs 
of Xinjiang.\2\
---------------------------------------------------------------------------
    \2\ According to the 2000 China national census, the Hui population 
of China is approximately 9.2 million and the Uighur population is 8.6 
million. The other Muslim populations are: Kazak 1.3 million; Dongxiang 
400,000; Kyrgyz 171,000; Salar 90,000; Tajik 41,000; Uzbek 14,000; 
Bonan 13,000; and Tatar 5,000.
---------------------------------------------------------------------------
    Shortly after the advent of Islam in the seventh century, there 
were Muslims in China, for sea trade networks between China and 
Southwest Asia had existed for centuries. Small communities of Muslim 
traders and merchants survived for 
centuries in cities along China's southeast coast. This early interest 
in China as a destination for Muslim travelers is reflected in the 
famous hadith of the Prophet Muhammad, 'Utlub al-'ilm wa law fi Sin, 
``seek knowledge, even unto China.''
    Although Muslim communities were established in China as early as 
the seventh century, it was not until the thirteenth century, during 
the Yuan dynasty, that tens of thousands of Muslims from Central and 
Western Asia settled in China. Most of the Hui population today are 
descendants of these early settlers. Despite centuries of relative 
isolation from the rest of the Islamic world, the Muslims in most 
regions of China have managed to sustain a continuous knowledge of the 
Islamic sciences, Arabic, and Persian. Given extended periods of 
persecution combined with periods of intense government efforts to 
legislate adoption of Chinese cultural practices and norms,\3\ that 
Islam should have survived, let alone flourished, is an extraordinary 
historical phenomenon. Although some scholars have attributed the 
survival of Muslim communities in China to their ability to adopt 
Chinese cultural traditions, when asked themselves, Chinese Muslims 
usually attribute their survival to their strong faith and God's 
protection.
---------------------------------------------------------------------------
    \3\ During the early part of the Ming period (1368-1644) China's 
cosmopolitan and international initiatives gave way to a period of 
conservatism and the redirection of imperial resources toward domestic 
issues and projects. During this period numerous laws were passed 
requiring ``foreigners'' to dress like Chinese, adopt Chinese surnames, 
speak Chinese, and essentially in appearance, become Chinese. Despite 
these restrictions and requirements, the Muslims of China continued to 
actively practice their faith and pass it on to their descendants. By 
the end of the Ming dynasty there were enough Chinese Muslim 
intellectuals that were thoroughly educated in the classical Confucian 
tradition, that several scholars developed a new Islamic literary 
genre: religious works on Islam written in Chinese that incorporated 
the vocabulary of Confucian, Buddhist, and Daoist thought.
---------------------------------------------------------------------------
    In 1644, the Qing dynasty was established, marking the beginning of 
a period of unparalleled growth and expansion, both in terms of 
territory and population. Travel restrictions were lifted, and the 
Muslims of China were once again allowed to make the pilgrimage to 
Mecca and study in the major centers of learning in the Islamic world. 
During this period several Hui scholars studied abroad and upon their 
return they started a movement to revitalize Islamic studies by 
translating the most important Islamic texts into Chinese and thus 
making them more accessible.
    However, despite the opportunities for travel and study that arose 
during this period, the Qing dynasty also represented a period of 
unparalleled violence against the Muslims of China. As reform movements 
led by Muslims who had studied overseas spread, conflicts arose between 
different communities. In several instances the 
government intervened, supporting one group against another, leading to 
an exacerbation of the conflict, outbreaks of mass violence and the 
eventual slaughter of hundreds of thousands of Muslims, and several 
rebellions.
    One of the most common stereotypes of the Muslims is that they are 
an inherently violent people. In order to show how such prejudices 
evolve I would like to briefly summarize the events leading up to the 
slaughter of as many as 750,000 Muslims in southwest China in the 
1870s. During the seventeenth and eighteenth centuries, China 
experienced a massive population explosion resulting in millions of Han 
Chinese moving into the frontier regions. As more immigrants moved into 
Yunnan province along the southwest frontier, there were increasing 
clashes with the indigenous peoples, and the Hui who had settled there 
in the thirteenth century and whose population is estimated to have 
been one million. The Han settlers, not unlike white settlers 
throughout much of colonial history, did not view the local peoples as 
full humans, and citizens with equal rights under the law. In a series 
of disputes between these immigrants and the Hui, local Han Chinese 
officials (who themselves were not local residents), repeatedly decided 
to support their fellow Han Chinese against the local residents. The 
Muslims sent envoys to Beijing seeking justice to no avail. Fighting 
escalated and after a government led massacre of the Muslim population 
of the provincial capital Kunming, a Chinese Muslim scholar started a 
rebellion and in 1856 established an independent Islamic state centered 
in northwest Yunnan. The state survived for almost 16 years, and the 
Muslims worked closely together with other indigenous peoples. However, 
following the quelling of other major rebellions, the Chinese Emperor 
ordered his troops to concentrate their efforts on Yunnan; the 
massacres that ensued wiped out the majority of Muslims in the region. 
Estimates of the percentage killed range from 60 to 85 percent, and 
more than a century later, their population has still not recovered its 
original number. Another consequence of the rebellion was a series of 
government regulations severely restricting the lives of Muslims.\4\ 
From a Han Chinese perspective, the 
insistence on the part of the Muslims to fight for their rights even 
against overwhelming odds, was a sign of violent tendencies, rather 
than a desire for justice 
regardless of the consequences.
---------------------------------------------------------------------------
    \4\ Muslims were no longer allowed to live within city walls, were 
restricted to certain occupations, and in most cases lost all their 
personal property, businesses, farm land, and communal property, such 
as schools and mosques.
---------------------------------------------------------------------------
    During the communists rise to power in the 1940s, many Muslims 
agreed to support them in exchange for guarantees of religious freedom. 
Although in the early years of the PRC these promises were respected, 
during subsequent political campaigns, culminating with the Cultural 
Revolution (1966-1976), the Muslims of China found their religion 
outlawed, their religious leaders persecuted, imprisoned and even 
killed, and their mosques defiled, if not destroyed.\5\
---------------------------------------------------------------------------
    \5\ During this period all worship and religious education were 
forbidden, and even simple common utterances such as insha'allah (God 
willing), or al-hamdulillah (thanks be to God) could cause Muslims to 
be punished. Despite the danger, Muslims in many parts of China 
continued their religious studies in secret.
---------------------------------------------------------------------------
    In the years immediately following the Cultural Revolution, the 
Muslims of China lost no time in rebuilding their devastated 
communities. Throughout China, Muslims began slowly to restore their 
religious institutions and revive their religious 
activities. Their first priority was to rebuild their damaged mosques 
thereby allowing communities to create a space in which they could once 
again pray together, but also so that the mosques could reassert their 
role as centers of Islamic learning. Over the next two decades mosques 
throughout most of the country organized classes for not only girls and 
boys, and young adults, but also for older men and women who had not 
had the opportunity to study their religion. Beginning in the late 
1980s and continuing to the 1990s Islamic colleges have also been 
established throughout most of China.
    Within China, when asked how to explain the recent resurgence in 
Islamic education, community members cite two main reasons: a desire to 
rebuild that which was taken from them, and the hope that a strong 
religious faith would help protect Muslim communities from the myriad 
of social problems presently besetting China in this day and age of 
rapid economic development. Chinese Muslim studying overseas reiterate 
the need to equip themselves and their communities for their future in 
a state which seems to be ideologically adrift.\6\
---------------------------------------------------------------------------
    \6\ Over the past decade an increasing number of Chinese Muslims 
have decided to pursue their religious studies at Islamic universities 
overseas.
---------------------------------------------------------------------------
    After many years of living in China and interviewing religious 
teachers and students, I am convinced that these studies have an 
overwhelmingly positive influence on Chinese society. Older Muslims are 
finally able to study their religious traditions, and young people are 
able to learn the guiding moral traditions of Islam, 
including a respect for the state and its laws. As both of my daughters 
attended the public Hui preschool in Kunming for several years, I can 
attest to the extraordinary degree to which the teachers promoted civic 
responsibility and community values.
    Moreover, Muslim religious leaders have been able to assist in the 
national government's efforts to stem the increasing number of rural 
households who are sacrificing their children's education, particularly 
their daughters', as recent economic reforms have resulted in school 
fees that are crippling families incomes. Imams have worked together 
with the All-China Women's Federation to remind peasants in rural areas 
of their religious obligation within Islam to educate all their 
children. Women have also played a very active role in the revival of 
Islamic education, both as students and as teachers. The women are well 
aware of the importance of educating girls, for as one said to me, 
``educate a man, educate an individual; educate a women, educate a 
nation.''
    The Muslims' emphasis on education, both secular and religious, is 
not a surprise. As other minority groups who have survived the 
vicissitudes of state persecution over time, they have learned that the 
only thing that cannot be taken away from them is their education. 
Consequently, Muslims in China have always be over represented among 
teachers, professors and college graduates.
    At present the government still maintains very strict control on 
all aspects of public religious practice and education throughout 
China. The government controls the faculty, student and curriculum of 
Islamic schools. It controls the appointment of imams in mosques, and 
decides which ones will be allowed to lead prayers at the Friday 
services. I will now turn to the situation of Muslims in Xinjiang.

                         CONDITIONS IN XINJIANG

    Although Muslims throughout China face a variety of challenges and 
are the 
subject of a wide range of discriminatory actions, the situation for 
the indigenous peoples of Xinjiang is unprecedented in its severity, 
surpassing even the repressive policies facing the Tibetans. Muslims 
that hold official positions, including faculty at the universities are 
forbidden to carry out any religious activity in public. They are not 
allowed to attend mosque, fast during Ramadan, or in any other way 
respect their religious traditions in public. There are signs on 
mosques refusing entry to anyone under 18 years of age. Islamic 
education outside the one officially controlled school is forbidden.
    The state has conflated the practice of Islam with separatist 
activity and completely overreacted in its illegally prohibiting almost 
all forms of Islamic education and public religious practice. Large 
numbers of Muslims in Xinjiang have been thrown in jail and sentenced 
without public trial. And an untold number have been executed for 
accused political crimes.
    Once the overwhelming majority in Xinjiang, Uighurs and other 
Muslim peoples will soon be outnumbered by Han Chinese immigrants. And 
although the government is committed to spending millions of dollars on 
development projects there, the primary beneficiaries in virtually 
every major industrial and development project, have been the immigrant 
Han Chinese population, and often with tremendous negative 
environmental impact on the region.

                    SPECIFIC POLICY RECOMMENDATIONS

    <bullet> All Muslims should have the freedom to practice their 
religion, and all parents should have the freedom to bring their 
children with them to mosque.
    <bullet> All Muslims should have the freedom to take part in 
Islamic studies classes, and pursue a deeper understanding of their 
religion.
    <bullet> All schools in predominantly minority areas should be 
allowed to teach the cultural traditions and history of the minority 
people there. At present the curricula of all primary and secondary 
schools in China are controlled at the national level, and minority 
peoples are not allowed to study their own history and culture.\7\
---------------------------------------------------------------------------
    \7\ Outside of Xinjiang, Chinese Muslims are able to offer classes 
for preschool students, and in after school programs and summer 
programs for older children.
---------------------------------------------------------------------------
    <bullet> The current quota of only 2,000 people being allowed to 
make the annual pilgrimage to Mecca should be increased to at least 
20,000 (which is the normal amount that would be allowed using the 
Saudi calculation of one hajj visa for every 10,000 Muslims in a given 
country); and there should be no age restrictions (presently only 
people 60 and older are allowed to make the pilgrimage).
    <bullet> The government is making it increasingly difficult for 
Muslims to receive a passport, thereby limiting their ability to take 
part in the hajj, study overseas, and take part in business activities. 
Religious belief should not be used as a reason for denying an 
individual a passport.
    <bullet> Over the past decade, throughout China mosques and Muslim 
neighborhoods dating back centuries have been destroyed as a result of 
real estate and public development projects. Efforts should be made, 
ideally through international organizations like UNESCO, to protect 
Muslim neighborhoods and preserve historic mosques as national heritage 
sites. These communal spaces are of fundamental importance to the 
survival of these communities.
    <bullet> Muslims in official and public roles should not be coerced 
into publicly renouncing their religious obligations, for example being 
forced to eat during daylight hours during Ramadan, the month of 
fasting.
    <bullet> Remove ethnicity from national id cards as it leads to 
discrimination in employment, housing, and traveling.

                  RECOMMENDATIONS SPECIFIC TO XINJIANG

    <bullet> The government should allow Uighurs and other indigenous 
peoples to freely study and learn their own languages and history.
    <bullet> The decision to discontinue the use of the Uighur language 
at all universities in Xinjiang should be rescinded. According to 
numerous reports, last summer thousands of books in the Uighur language 
were burned by government officials in Xinjiang.
    <bullet> Although Radio Free Asia broadcasts in Uighur, VOA does 
not.
    <bullet> The US should support the establishment of local non-
political NGOs by indigenous peoples to promote economic, educational 
and public health development projects.

                               CONCLUSION

    At the present time many Muslims in China continue to hope and pray 
that the US Government will use its influence to persuade the Chinese 
state to uphold its moral and international obligations to allow for 
the freedom of religion and the survival of indigenous cultures. Recent 
actions by the US, including the decision to 
acquiesce to Beijing's labeling a small obscure Uighur group, the ETIM 
(Eastern Turkestan Islamic Movement) as a ``terrorist organization,'' 
have done much to undermine Chinese Muslims' faith in the US as 
protector of basic human rights.
    And although there are numerous reports made by the Chinese state, 
and often repeated in the Western press that radical separatism is a 
common desire in Xinjiang, in fact in dozens of conversations, spanning 
20 years now, I have never heard a Uighur call for violent attacks on 
the Chinese state. They have spoken with an increasing despair that 
they simply be allowed to practice their religion, continue to use 
their language in their studies, and uphold their traditional cultural 
practices, as citizens of China.
    I entreat our government to encourage the Chinese state to uphold 
the basic rights of the Muslims in China. Current repressive tactics 
not only undermine the Muslims rights to pass on their religious and 
moral values and cultural practices to their children, they also 
undermine the Muslims' trust in the Chinese Government.
    In conclusion, although maintaining their religious beliefs and 
practices over the centuries has been a continual challenge, Muslims in 
China have always been confident of their identities as both Muslims 
and Chinese. Although many have presumed that these identities were 
somehow inherently antagonistic, the survival of Islam in China for 
over a millennium belies these assumptions. Islamic and Chinese values 
have both proven to be sufficiently complementary and dynamic to allow 
for the flourishing of Islam in China, and God willing, it will 
continue to.
                                 ______
                                 

  Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska, 
        Co-Chairman, Congressional-Executive Commission on China

    Mr. Chairman, thank you for holding today's hearing. China's 
progress on human rights has unfortunately not matched its economic 
progress over the last few years. While the Chinese Government has 
begun to address questions regarding human rights abuses, significant 
issues remain.
    The Chinese Government severely restricts religious freedom, 
despite guaranteeing it in the Chinese Constitution. Members of 
religious groups not recognized by the government are routinely 
subjected to intimidation, harassment, and detention. Although Chinese 
law expressly prohibits religious persecution, the devout are often 
punished while their persecutors' crime is overlooked.
    Despite the Chinese Government's repressive actions, membership in 
unregistered churches, mosques, and temples is growing in China. More 
Chinese citizens practice a religion today than ever before.
    However, there are signs that the Chinese Government is becoming 
more receptive to a dialogue on religious issues. The United States 
Commission on International Religious Freedom has been invited to visit 
China--the trip is planned for the next 2 weeks. Beijing has hosted the 
Dalai Lama's special envoy to China twice in the past 11 months. These 
are welcome developments.
    The United States cannot impose its own standards and values on 
China, or any nation. But we also cannot ignore China's failure to deal 
with this problem. We can encourage and work with the Chinese 
Government to help improve the condition of its citizens. Expanding 
religious freedom is one such action.
    In the coming years, President Hu and Premier Wen must sustain 
China's unprecedented economic growth as well as expand religious 
freedom and other basic human rights. The U.S. challenge is to convince 
China that economic strength and religious freedom are not 
contradictory; but complementary paths to prosperity.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
